Fiscal Year 2012

  Medicare-
     Eligible
     Retiree
 Health Care
        Fund
    Audited
   Financial
 Statements



      November 7, 2012
                                                      Table of Contents
Management’s Discussion and Analysis ........................................................................................ 1
  Reporting Entity ........................................................................................................................... 1
  Medicare-Eligible Retiree Health Care Plan of Benefits ............................................................. 2
  Health Care Purchased from Civilian Providers .......................................................................... 3
  Payment for Health Care Provided in MTFs ............................................................................... 4
  Performance Measures ................................................................................................................. 4
  Investments .................................................................................................................................. 5
  Status of Audit Findings .............................................................................................................. 6
  Material Weaknesses ................................................................................................................... 6
  Direct Care Costs ......................................................................................................................... 6
  Actions Taken .............................................................................................................................. 7
  Retail Pharmacy Refund Program (Standard Discount Program) ............................................... 8
  Computation of Incurred Claims Reserve.................................................................................. 10
  Financial Performance Overview .............................................................................................. 11
  Financial Data ............................................................................................................................ 11
  Limitations of the Financial Statements .................................................................................... 13
  Internal Controls Over Financial Reporting and On Compliance With Other Matters ............. 13
Principal Statements...................................................................................................................... 14
  Balance Sheets ........................................................................................................................... 15
  Statements of Net Cost............................................................................................................... 16
  Statements of Changes in Net Position ...................................................................................... 16
  Statements of Budgetary Resources........................................................................................... 18
Notes to the Principal Statements ................................................................................................. 19
  Note 1. Significant Accounting Policies ................................................................................... 19
  A. Basis of Presentation ............................................................................................................ 19
  B. Mission of the Reporting Entity ........................................................................................... 19
  C. Appropriations and Funds .................................................................................................... 19
  D. Basis of Accounting ............................................................................................................. 20
  E. Revenues and Other Financing Sources ............................................................................... 20
  F. Recognition of Expenses ...................................................................................................... 20
  G. Accounting for Intragovernmental Activities ...................................................................... 20
  H. Funds with the U.S. Treasury............................................................................................... 20
  I. Cash and Other Monetary Assets .......................................................................................... 21
  J. Accounts Receivable ............................................................................................................. 21
  K. Investments in U.S. Treasury Securities .............................................................................. 21
  L. Contingencies and Other Liabilities ..................................................................................... 22
  M. Net Position ......................................................................................................................... 22
  N. Military Retirement and Other Federal Employment Benefits ............................................ 22
  O. Significant Events ................................................................................................................ 22
  P. Reclassification .................................................................................................................. 23
  Note 2. Fund Balance with Treasury ........................................................................................ 24
  Note 3. Investments .................................................................................................................. 24
  Note 4. Cash and Other Monetary Assets ................................................................................. 27
  Note 5. Accounts Receivable .................................................................................................... 27


                                                                        i
  Note 6. Liabilities Not Covered by Budgetary Resources ........................................................ 28
  Note 7. Accounts Payable ......................................................................................................... 28
  Note 8. Other Liabilities ........................................................................................................... 29
  Note 9. Military Retirement Benefit Liabilities ........................................................................ 29
  Note 10. Disclosures Related to the Statements of Net Cost .................................................... 34
  Note 11. Disclosures Related to the Statements of Changes in Net Position ........................... 36
  Note 12. Disclosures Related to the Statements of Budgetary Resources ................................ 36
  Note 13. Reconciliation of Net Cost of Operations to Budget ................................................. 37
  Note 14. Earmarked Funds ....................................................................................................... 39
  Note 15. Other Disclosures ....................................................................................................... 40
Other Accompanying Information ................................................................................................ 41
  Exhibit 1--Summary of Financial Statement Audit and Management Assurances ................... 42
  Exhibit 2--IPIA Reporting Details September 30, 2012 ............................................................ 45
Independent Auditor’s Report....................................................................................................... 49




                                                                    ii
                                                  Management’s Discussion and Analysis

                 Management’s Discussion and Analysis
           Summary of the Department of Defense Uniformed Services
                Medicare-Eligible Retiree Health Care Fund
                      For the Years Ended September 30, 2012 and 2011

Reporting Entity
The reporting entity is the Department of Defense (DoD) Uniformed Services Medicare-Eligible
Retiree Health Care Fund (the “Fund” or MERHCF). The Fiscal Year (FY) 2001 National
Defense Authorization Act (NDAA) directed the establishment of the MERHCF to pay for
Medicare-eligible retiree health care beginning on October 1, 2002. Prior to this date, care for
Medicare-eligible beneficiaries was financed through annual Congressional appropriations for
space available care in Military Treatment Facilities (MTFs). The Fund covers Medicare-
eligible beneficiaries, regardless of age. In the context of the Fund, hereafter the term
“Medicare-eligible beneficiaries” is used to refer to Medicare-eligible beneficiaries who are
related to retirees (i.e., retirees themselves, dependents of retirees, and survivors).

The NDAA also established an independent three-member DoD Medicare-Eligible Retiree
Health Care Board of Actuaries (the Board) appointed by the Secretary of Defense. The Board is
required to review the actuarial status of the Fund, to report annually to the Secretary of Defense,
and to report to the President and the Congress on the status of the Fund at least every four years.
The DoD Office of the Actuary (OACT) provides all technical and administrative support to the
Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness
through the Office of the Assistant Secretary of Defense for Health Affairs, TRICARE
Management Activity (TMA), has as one of its missions operational oversight of the Defense
TRICARE Health Delivery System, including management of the Fund. TMA management
responsibilities include accounting for, documenting, and projecting annual budget distribution
requirements (purchased care claims, demands, and MTF prospective payments for anticipated
care provided in the direct care system), oversight of claims processors, monitoring/management
of the Improper Payments Information Act (IPIA) of 2002, and preparation of financial
statements and footnotes. The Defense Finance and Accounting Service (DFAS) provides
accounting and investment services for the Fund.

In FY 2012 and FY 2011 respectively, the Fund authorized approximately $9.8 billion and
$9.5 billion in total health care services, $8.0 billion and $7.7 billion to civilian providers, $1.3
billion and $1.4 billion to MTFs, and $0.5 billion and $0.4 billion to Military Service Personnel
Accounts, on behalf of Medicare-eligible retirees, retiree dependents, and survivors.




                                                 1
                                                 Management’s Discussion and Analysis

                        Final Fiscal Year Requirements and Funding Plan

  $ In Billions
                                        Operations &          Military
   Fiscal Year      Purchased Care                                             Final
                                        Maintenance          Personnel
      2012               $8.0               $1.3               $0.5             $9.8
      2011               $7.7               $1.4               $0.4             $9.5

The Fund receives income from three sources:
   1. An annual U.S. Treasury payment made on behalf of the Uniformed Services at the
      beginning of the year based on average budgeted force strengths
   2. Annual payments from the U. S. Treasury to amortize the unfunded liability, and
   3. Investment income

During the last two years of the Fund’s operation, income was received from the above sources
in the following amounts:

                                     MERHCF Funding Sources

    $ In Billions
                         Treasury Unfunded
                                                     Normal Cost           Interest on
     Fiscal Year         Actuarial Liability
                                                     Contribution         Investments
                          (UAL) Payment
        2012                    $6.7                    $11.1                $6.3
        2011                    $9.8                    $11.3                $9.2

No accounts of the Fund have been excluded from the Fund’s financial statements. The
significant decrease in investments interest realized between FY 2011 and FY 2012 is due
primarily to the unfavorable economic conditions during FY 2012.

Medicare-Eligible Retiree Health Care Plan of Benefits

TRICARE for Life (TFL) covers Medicare-eligible retirees, including retired guardsmen and
reservists, and Medicare-eligible family members and survivors. A beneficiary must be eligible
for Medicare Part A and enrolled in Medicare Part B. The Medicare-eligible retirees and family
members of the non-DoD Uniformed Services (Coast Guard, Public Health Service, and National
Oceanic and Atmospheric Administration) are also eligible for these benefits. TFL serves as the
final payer for Medicare covered benefits, and first payer for TRICARE benefits that are not
covered in the Medicare or Other Health Insurance programs.

The TRICARE Pharmacy Program authorizes eligible beneficiaries to obtain low-cost
prescription medications from the TRICARE Mail Order Pharmacy (TMOP) and TRICARE
network and non-network civilian pharmacies. Beneficiaries may also continue to use military
hospital and clinic pharmacies, at no charge.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific locations where
Designated Provider Program (DPP), formerly the Uniformed Services Family Health Plan,
facilities are available, may enroll in capitation rate plans. These plans include inpatient and


                                                 2
                                                Management’s Discussion and Analysis

outpatient services and a pharmacy benefit. The capitation rate is paid by DoD. Beneficiaries
who choose enrollment in these plans are ineligible for care in MTFs as well as benefits under
the TFL and Pharmacy programs. Beginning October 2012, a military retiree (or eligible family
member) who becomes eligible for Medicare due to age may not enroll in or stay enrolled in the
US Family Health Plan, unless the military retiree (or eligible family member) was enrolled in
the plan on September 30, 2012.

Health Care Purchased from Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, “Department of Defense
Medicare-Eligible Retiree Health Care Fund Operations”, dated July 19, 2002, the TMA reports
daily obligations to the Fund for purchased care provided in the civilian sector. Daily claims are
validated by the voucher edit procedures required by the TRICARE/Civilian Health and Medical
Program of the Uniformed Services (CHAMPUS) Automated Data Processing Manual 6010.50-
M, dated May 1999, to ensure that only costs attributable to Medicare-eligible beneficiaries are
included in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly distribution
estimates and any over/under charged amounts are applied to the estimated requirement for the
following month. During the month of September, as fiscal year-end approaches, more frequent
reconciliation between charged accounts and available funds may occur and processing can
continue up to a predetermined cut-off date established by TMA in coordination with
DFAS-Indianapolis (DFAS-IN).

TMA reports obligations to the Fund for the estimated DPP obligation amount based on the
contract-specific capitation rates for Medicare-eligible beneficiaries enrolled for each DPP
hospital contract option period twice per year, upon the commitment of funds and prior to the
start of the option period. Each DPP hospital’s reported enrollment is used to reconcile
contracted enrollment estimates for Medicare-eligible beneficiaries. At the end of each option
period, total charges are reconciled against the estimate and any over and/or under charged
amounts are applied to the estimated requirement for the following option period.

At the beginning of each FY, a new Funding Authorization Document (FAD) for the
TFL/TRICARE Pharmacy purchased care expenditure limit is provided to the TMA Contract
Resource Management (CRM) Division.           By agreement with DFAS-IN, disbursement
transactions are provided by email the day prior to payment processing. DFAS-IN uses these
estimates to ensure sufficient funds are available for payment from the Fund for daily
transactions. The final purchased care payments for FY 2012 and FY 2011 were approximately
$7.0 billion and $6.9 billion respectively.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to
Wisconsin Physician Services (WPS) for purposes of processing all claims supported by the
Fund, regardless of the geographic region in which care was received. Dual eligibility refers to
health care users who are both Uniformed Services beneficiaries (retired, dependents of retired,
and survivors) and Medicare-eligible beneficiaries. Having a single fiscal intermediary to
process all dual-eligible claims ensures greater confidence in uniformity and consistency of
claims adjudication.


                                                3
                                                 Management’s Discussion and Analysis


Payment for Health Care Provided in MTFs

TMA annually develops prospective payment amounts for care estimated to be provided in
MTFs to Medicare-eligible beneficiaries. The prospective payment amounts are calculated for
each MTF and include both Military Personnel (MILPERS) and Defense Health Program (DHP)
Operations and Maintenance (O&M) costs. TMA provides a memo to DFAS-IN with the
payment amounts by Military Service for MILPERS and DHP O&M that is reported on the
Standard Form 1081, Voucher and Schedule of Withdrawals and Credits by DFAS-IN.

The prospective payment amounts are based on costs reported by the MTF’s Medical Expense
and Performance Reporting System (MEPRS) and patient encounter data for the most recent
fiscal year for which data is complete at the time the calculations are prepared. TMA develops,
in coordination with the Military Departments and Office of the Under Secretary of Defense
(Comptroller) (OUSD(C)), MTF-specific rates in accordance with DoDI 6070.2, dated
July 19, 2002. MEPRS cost data are recorded separately for MILPERS and O&M components
per clinical workload. These amounts are inflated to the year of execution using Service-
provided budget data, and standard Office of Management and Budget (OMB) Consumer Price
Index-Urban (CPI-U) Medical inflation rates listed in the President’s Budget applicable to those
years. MEPRS data are recorded and maintained by the Military Services in accordance with
DoD 6010.13-M, “Medical Expense and Performance Reporting System for Fixed Military
Medical and Dental Treatment Facilities,” dated April 2008.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual total
program amount to the Military Services for MILPERS costs and to TMA for DHP O&M costs.
TMA, in turn, distributes DHP funds to the Military Services for execution. OUSD(C) includes
financial authority in the DHP Expense Operating Budget to finance the annual financial plan
requirement of the prospective payment.

When the year of execution is completed and the associated workload and cost data are available,
TMA conducts an execution review in coordination with OUSD(C) and the Military Services. A
comparison of prospective payment amounts to actual workload and costs is accomplished in
accordance with DoDI 6070.2, dated July 19, 2002.

The prospective O&M payment for MTF provided care to Medicare-eligible beneficiaries in
FY 2012 was $1.3 billion and $1.4 billion in FY 2011. While the unit costs of inpatient and
outpatient services have risen slightly, utilization of these services has continued to decline at a
greater rate. The prospective payment for MILPERS expenditure for care provided in the MTFs
to Medicare-eligible beneficiaries was $0.5 billion in FY 2012 and $0.4 billion in FY 2011.

Performance Measures
The mission of the Fund is to finance, on an actuarially sound basis, liabilities of the DoD and
the uniformed services health care programs for specific Medicare-eligible beneficiaries. There
are many ways to measure the funding progress of actuarially determined accrual funds. The
ratio of assets in the Fund to the actuarial liability is a commonly used fund ratio. As of
September 30, 2012, the Fund had net assets available to pay benefits of $174.7 billion and an


                                                 4
                                                     Management’s Discussion and Analysis

actuarial liability of $532.8 billion; the funding ratio was 32.8%. As of September 30, 2011, the
Fund had net assets available to pay benefits of $184.9 billion and an actuarial liability of $533.7
billion; the funding ratio was 34.6%. Notwithstanding the effect of other actuarial gains and
losses that will occur over time, this ratio is expected to reach 100% once the initial unfunded
liability is fully amortized in accordance with a schedule set by the DoD Board of Actuaries.
The 45-year amortization period for the initial unfunded liability is scheduled to end in FY 2047.

Investments

                                        Investments as of 9/30/12         OVERNIGHTS,
                            INTEREST                                       $6.599, 3%
                                            ($203.342 billion)
                          RECEIVABLE,                                         NOTES, $4.000,
                           $1.998, 1%                                             2%
            DISC/PREM/
                                                                                BONDS, $8.850,
              AMORT,
                                                                                    4%
            $25.247, 12%
            INFLATION,
           $31.450, 15%                                 TIPS, $125.196,
                                                              62%




                                                 Figure 1

Figure 1 depicts the par value (plus inflation and interest receivable) of investment holdings as of
September 30, 2012.

The Fund receives investment income from a variety of U.S. Treasury-based instruments such as
bills, notes, bonds and overnight investment certificates. U.S Treasury bills are short-term
securities with maturities of less than one year issued at a discount. U.S Treasury notes are
intermediate securities with maturities of one to ten years. U.S Treasury bonds are long-term
debt instruments with maturities of greater than ten years. Overnight certificates are interest-
based market securities purchased from the U.S Treasury that mature the next business day and
accrue interest based on the Federal Reserve Bank of New York survey of reserve repurchase
agreement rates.

The Fund also invests in U.S Treasury Inflation Protected Securities (TIPS), which are indexed
for inflation. TIPS are fixed-rate instruments designed to protect against inflation, and the
principal amount is indexed to the consumer price index (CPI) by adjusting the CPI at issuance
to the current CPI; as inflation increases, so does the principal amount and the semi-annual
interest.




                                                    5
                                                  Management’s Discussion and Analysis

All of these instruments are debt obligations of the U.S. Government and are backed by the “full
faith and credit” of the federal government. Debt obligations of the U.S. Government have
virtually no risk of nonpayment of principal and interest at the specified due date.

The Fund receives management oversight from the DoD Investment Board established in
September 2003. The members of the Investment Board are the Director, DFAS; the Deputy
Chief Financial Officer, OUSD(C); and a senior military member, currently the Chief, Army
Budget. The Investment Board reviews the Fund’s Law and Department of Treasury guidelines
to ensure compliance with broad policy guidance and public law.

Status of Audit Findings
The MERHCF independent auditors noted two material weaknesses during the FY 2011
Financial Statement Audit. These material weaknesses were noted as repeat findings during the
FY 2012 Financial Statement Audit.

Material Weaknesses

       1. MTF-related amounts of direct care costs are estimated by MERHCF’s actuaries and
          others using data extracted from various service-specific financial, personnel, and
          workload systems within DoD. With respect to extracted data, the MTFs do not
          currently have compliant, transaction-based accounting systems that apply common
          and consistent business rules in a manner envisioned by the DoD’s planned Standard
          Financial Information Structure.

       2. The healthcare cost data from the MTF’s provided for the estimation process are
          aggregated or derived from information in both financial and non-financial systems
          within the services that have not been audited. The MTF-level data are based on
          budget execution processes, rather than accrual-based accounting. There is
          insufficient evidence that appropriate and consistent cutoff of accounting activity
          occurs at the MTF level.

Direct Care Costs

At issue, with the lack of a patient-level cost accounting system, material weaknesses 1 and 2
above, is the fact the actuarial liability for Medicare-eligible retiree benefits as of
September 30, 2012 and 2011 is approximately $77.3 billion (15% of total) and $73.6 billion
(14% of total), respectively, which reflects the actuarial present value of the projected direct-care
costs of benefits to be provided by MTFs to MERHCF beneficiaries.

Additionally, the reported amounts of program revenues and cost for the year ended
September 30, 2012, include approximately $2.7 billion and $1.7 billion, respectively, and for
the year ended September 30, 2011, include approximately $2.8 billion and $1.8 billion,
respectively, of amounts related to direct care costs. Such MTF-related amounts of direct-care
costs are estimated by the Fund’s actuaries using data extracted from various Service-specific
financial, personnel, and workload systems within DoD. With respect to extracted data, the



                                                 6
                                                  Management’s Discussion and Analysis

MTFs do not have OMB Circular A-127, Financial Management Systems, compliant,
transaction-based accounting systems and cannot report the costs of an individual patient’s care.

True patient-level cost accounting systems are currently not available within TRICARE. In lieu
of such a system, the DoD has developed a cost allocation tool, the MEPRS, which enables
MTFs to allocate all costs associated with the daily operation of the facility into the inpatient,
outpatient, dental, and ancillary service cost centers. Average costs per weighted workload unit
can then be computed for various patient care activities.

The average costs per weighted workload unit are then applied to specific care provided to
specific patients by reviewing the Standard Inpatient Data Record (SIDR) and Comprehensive
Ambulatory/Professional Encounter Record System (CAPERS) reported in the MHS Data
Repository. The SIDRs and CAPERS are prepared for each patient encounter and contain
patient-specific information, to include name, Social Security Number, sponsor or dependent
status, and Medicare eligibility. Further, the SIDRs and CAPERS reflect the diagnosis and any
procedures performed on the patient for that specific encounter. The average costs per weighted
workload unit computed in MEPRS is then applied against the specific data contained in the
SIDRs and CAPERS to determine an average cost for care provided to a specific patient.
Estimates of the weighted workload provided to Medicare-eligible beneficiaries are calculated
for each MTF based on historical experience. When the weighted workload costs are applied
against the projected workload volume for each MTF, a prospective payment distribution plan
can be computed for each MTF for the next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as described
above, MTF outpatient pharmacy costs represent the largest cost driver for the actuarial liability.
The reconciliation tasks performed by TMA management’s support contractor have also assessed
and documented the operation of Pharmacy Data Transaction Service, data to support both the
prospective payment and calculation of the actuarial liability.

The prospective payments made to the MTFs are reconciled with actual workload activity after
the close of the fiscal year. The results of the reconciliation are used to adjust projections of
MTF workload levels and costs for the future prospective payment distribution plan. The results
of the reconciliation will not be used to make adjustments to the current prospective payment
distribution plan either during execution year activities or to a specific distribution subsequent to
the close of the fiscal year’s operation.

Issues with the prospective payment process include validating/reconciling financial data prior to
its input into the MEPRS cost allocation process, archiving MEPRS data at the close of each
month, and reconciling in a timely manner the fiscal year prospective payment plan.

Actions Taken

Since FY 2003, when the Fund was established, MERHCF management has attempted to resolve
auditor-identified material weaknesses through the development of key milestone initiatives.
These initiatives were established and managed by TMA leadership and intended to serve as
work-arounds to address the Services’ financial systems’ deficiencies. The material weaknesses



                                                 7
                                                Management’s Discussion and Analysis

are associated with the computation of that portion of the MERHCF health care liability
involving the care provided to Medicare-eligible beneficiaries in the MTFs.

Unfortunately, the milestone initiatives have not produced the desired results in the projected
time frame. To mitigate risks associated with these weaknesses, and to initiate appropriate
corrective actions, we have developed a revised financial improvement plan with key milestones
to incorporate a methodology to use per capita rates to prospectively compensate the Military
Services each year for health care provided to Medicare-eligible beneficiaries in DoD MTFs.
This methodology will also be used by the Office of the Actuary to compute the MERHCF
health care liability. The use of per capita rates will enable the MERHCF to eliminate the need
to rely on MTFs for auditable financial information and accurate coding of medical records and,
thus, move to an unqualified audit opinion independent of the Military Services’ receipt of
unqualified audit opinions on their financial statements.

Creating a new model is very complex and resource intensive. The model must comply with
actuarial laws and requirements as well as satisfy accounting, Government Accountability
Office, and Congressional standards. Data on which the new model will be developed must be
collected over time for several fiscal years with appropriate adjustments, as trends dictate. The
initial data collected from the Center for Medicare and Medicaid Services by the OACT
contained 2.2 million records on Medicare-eligible retirees and dependents. Additional time will
be required to collect industry benchmark data, analyze the data, and develop and test the model.
After testing, modifications may also be required; therefore, the time table for implementation of
the per capita rate methodology is for the close of FY 2013.

Direct care costs developed under this proposed method will still retain the current plan design
wherein Medicare does not reimburse DoD for care received in MTFs.

Retail Pharmacy Refund Program (Standard Discount Program)

TRICARE Standard Discount Program (SDP) formerly known as Mandatory Agreements
Retail Refunds (MARR)

Section 703 of the National Defense Authorization Act (NDAA) for Fiscal Year 2008 enacted 10
U.S.C. 1074g(f) which mandated all covered TRICARE Retail Pharmacy Network prescriptions
filled on or after January 28, 2008, are subject to Federal Ceiling Prices (FCP).

A pending appeal by the Coalition for Common Sense in Government Procurement is currently
before the United States Court of Appeals for the District of Columbia Circuit (Court of
Appeals). This case was closed out in the FY 2011 interim legal representation letter because in
the legal opinion of the TMA/OGC, it does not represent a money claim and if the plaintiff
succeeded, the result would be additional rule-making. A trade association on behalf of
pharmaceutical manufacturers initially sought to enjoin DoD from enforcing a rule implementing
10 U.S.C. § 1074g(f) enacted in Section 703 of the NDAA for Fiscal Year 2008, Pub. L. 110-
181. The initial rule, published in the Code of Federal Regulations at 32 C.F.R. 199.21(q),
subjected the TRICARE retail pharmacy program to pricing standards known as Federal Ceiling
Prices (FCP) by prohibiting pharmaceutical manufacturers from receiving more than the FCPs
for pharmaceuticals purchased by DoD for the TRICARE retail pharmacy program. In


                                                8
                                                Management’s Discussion and Analysis

November 2009, the District Court for the District of Columbia remanded the matter to DoD to
consider the effective date of the published rule (i.e., whether it would be made effective as of
the effective date of the statute (January 28, 2008)). DoD's rule-making determined the effective
date would still be January 28, 2008. The District Court upheld the final rule. Now that the
District Court has ruled in favor of the Government, the TMA Office of General Counsel views
plaintiff’s chances of succeeding on appeal as being remote. If plaintiff did succeed, there would
still be no money damages and an unfavorable result would be a remand for further rule-making.

Prior to September 2012, the TRICARE Management Activity (TMA) had not demanded
payment for refunds arising before the date of its original Final Rule implementing NDAA-08.
Consequently, OGC was not able to finalize resolution of the waiver/compromise requests
submitted by pharmaceutical manufacturers for the period January 29, 2008 through September
30, 2012.

MERHCF issued demand letters in September 2012 to the pharmaceutical manufacturers for
refunds due for Calendar Year (CY) 2008 and the first two quarters of CY 2009.

Accompanying those demand letters, excepting the letters for those manufacturers with pre-
statute voluntary refund agreements, were letters from OGC denying the majority of
waiver/compromise requests. Special, individual letters accompanied the demand letters to the
sixteen manufacturers with pre-statute voluntary agreements.

For consistency, TMA will begin recalculations for the 3rd and 4th quarters of CY 2009 and all
subsequent quarters for CY 2010 and CY 2011 in FY 2013. Accompanying the demand letters
for the recalculations will be the appropriate waiver/compromise resolution letters from OGC.

TMA will begin the transfer of delinquent debt files to the OGC for legal validation and
subsequent referral to the U.S. Department of Treasury or the Department of Justice in FY 2013
upon completion of the recalculations and subsequent reconciliations. TMA believes that the
delinquent debts should be consistently calculated, accurate and final before transferring to the
U.S. Department of Treasury and/or the Department of Justice.

In FY 2011, MERHCF received a total of $691.8 million in pharmacy retail network refunds
under the SDP program. In FY 2012, receipts totaled $496.5 million, representing 55% of total
SDP collections received.

TRICARE Additional Discount Program (ADP) formerly known as Voluntary Agreements
Retail Rebates (VARR)

TMA initiated a new retail pharmacy rebate program during the 2nd Quarter, FY 2007, ADP,
formerly known as Voluntary Agreements Retail Rebates (VARR). Manufacturers may offer
rebates to the DoD for pharmaceutical agents dispensed through the TRICARE Retail pharmacy
network. The Uniform Formulary VARR (UF-VARR) is contingent upon pharmaceutical agents
being included on the 1st (generic drugs) or 2nd (formulary brand drugs) tiers of the DoD Uniform
Formulary. There are two types of additional discounts in addition to the SDP:


                                                9
                                                Management’s Discussion and Analysis


   •   SDP - (Program 006) - Standard or Minimum Refund (SDP) on a Section 703 Covered
       Drug is by law equal to the difference between Non-FAMP (Non-Federal Average
       Manufacturer Price) and FCP (Federal Ceiling Price = 76% x Non-FAMP).

   •   ADP #1 (Program 009) - WAC (% of Wholesale Acquisition Cost): The manufacturer’s
       list price for the drug to wholesalers or direct purchasers in the United States, not
       including prompt pay or other discounts, rebates or reductions in price, as reported in
       wholesale price guides or other publications of drug pricing data.

   •   ADP #2 (Program 010) – (FCP - additional discount): The maximum price the
       manufacturer can charge for a Federal Supply Schedule (FSS) listed drug to the Big 4 --
       VA, DoD, PHS, and the Coast Guard; calculated annually by VA using Non-FAMP and
       other data submitted by the manufacturer.

In FY 2011 MERHCF received a total of $301.3 million in pharmacy retail network rebates
under both ADP programs. In FY 2012, receipts from both programs were $319.6 million,
representing 55% of total ADP collections received.

Computation of Incurred Claims Reserve
The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR) claims
for purchased care to the Fund’s beneficiaries relies on data files provided by TMA to the
OACT. Due to the lack of a fully integrated financial management system to support the DHP,
certain data are provided to the OACT from health care operational sources, rather than from the
accounting and financial records of claims payment activity.

The TMA/CRM Division in Aurora, Colorado, monitors claims processing activities performed
by the TDEFIC fiscal intermediary, WPS, in support of purchased care activities for Medicare-
eligible beneficiaries. To better monitor purchased care claims processing and mitigate the
potential for an undetected large increase in claims backlogs occurring in the future, MERHCF
management has developed a quarterly purchased care claims backlog metric to report to
OUSD(C).

Each quarter MERHCF estimates the IBNR purchased care claims liability. IBNR represents
health care received by Medicare-eligible beneficiaries for which DoD has not yet received a
claim. The purchased care claims processing metric monitors the completeness of the data used
for the IBNR liability calculation. The metric is calculated by dividing the liability from claims
on hand that is actually used in the IBNR calculation (without any backlogged claims) by the
liability that includes any claims backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular and normally distributed data. The data does not
have to be 100% complete, but must include a percentage of claims large enough to represent the
normal claims universe, and most importantly, the degree of the claims completeness should
remain relatively constant over time.



                                               10
                                                       Management’s Discussion and Analysis

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability
contained on all processed and backlogged claims. It is anticipated that 8% to 12% of available
monthly claims will not be included in the IBNR calculation due to the cutoff of processed
claims by 10:00 am EST on the last business day of the month. The cutoff was established to
ensure IBNR calculations could be completed in time to meet reporting requirements. For
FY 2012 and FY 2011, the IBNR calculation included 100% of available monthly claims.

Financial Performance Overview
Financial Data

The following table presents comparative financial statement information for the MERHCF.

                                 Medicare-Eligible Retiree Health Care Fund
                                        Analysis of Financial Statements
                                for the years ended September 30, 2012 and 2011
                                                ($ In Thousands)
                                                                                    Difference
                                                                                                     %
Consolidated Balance Sheets                           2012              2011         Increase/
                                                                                                   Change
                                                                                    (Decrease)
Fund Balance with Treasury                              $162,254         $227,170      ($64,916)    (29 %)
Investments (Intra-Governmental Securities)
- Revenue from Treasury payments and
Service contributions excess to current year
health care benefit payments is invested in
Treasury securities                                $203,341,522     $187,826,062    $15,515,460       8%
Accounts Receivable, Net
A/R associated with Standard Discount
Program (SDP)                                        $ 1,004,281         $497,982      $506,299      102%
Liabilities Not Covered by Budgetary
Resources
  - Represents difference between actuarial
liability for future benefit payments and
current assets                                     $358,077,554     $348,753,354     $9,324,200        3%

Accounts Payable (Intra-governmental)                   $134,273         $101,275       $32,998      33 %
Accounts Payable (Non-Federal)                          $418,559         $321,360       $97,199      30 %
Military Retirement and Other Federal
Employment Benefits
   - Represents actuarial liability of future
health care benefit and Incurred But Not
Reported (IBNR) liability                          $533,392,364     $534,379,945     ($987,581)     (.18%)
Statements of Net Cost
Net costs of operation
- Changes in computation of actuarial health
care liability are the major contributor to
changes in net costs of operation                  ($16,814,227)    ($60,761,227)   $43,946,999       72%

Statements of Budgetary Resources
Undelivered orders                                      $38,291         $100,212      ($61,921)     (62%)
Net Outlays                                         ($4,228,262)    ($10,203,340)     5,975,078      59%



                                                      11
                                                  Management’s Discussion and Analysis

Assets

Assets of $204.5 billion, included in the previous table and shown in Figure 2, represent amounts
that the MERHCF owns and manages. Assets increased $15.9 billion at the end of FY 2012.
This increase is largely attributable to purchasing new investments of $15.5 billion with funds
received from the U.S. Treasury payments, Service contributions, and interest received. The net
increase in investments is related to expected normal growth to cover unfunded portions of future
military retirement benefits. Funds not needed to pay current benefits are invested in U.S.
Treasury securities.

            Fund Balance with             Total Assets                   Cash and other
                Treasury,                                               Monetary Assets,
                                     ($204,510.369 million)
              $162.254, <1%                                               $2.312, <1%
             Accounts
           Receivable,
         $1,004.281, <1%


                                            Investments,
                                           $203,341.522,
                                                99%




                                              Figure 2

Liabilities

Liabilities of $533.9 billion shown in Figure 3 represent liabilities related to military retirement
medical benefits for Medicare-eligible beneficiaries. The liabilities of the MERHCF primarily
consist of an actuarial liability for future benefit payments. Liabilities decreased $0.9 billion at
the end of FY 2012. This decrease is largely attributable to the decrease in the actuarial liability.


                        Accounts
                                         Total Liabilities
                                                                       Other
                        Payable--     ($533,947.508 million)         Liabilities,
                         Federal,                                     $2,312,
                        $134,273,                                     0.0004%
                         0.0251%                                              Military
                 Accounts                                               Retirement and
              Payable--Public,                                           Other Federal
                 $418,559,                                                Employment
                  0.0784%                                                    Benefits,
                                                                         $533,392.364,
                                                                            99.8960%




                                              Figure 3


                                                 12
                                                 Management’s Discussion and Analysis


Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations for the MERHCF pursuant to the requirements of the Chief Financial Officers
(CFO) Act of 1990. While the statements have been prepared from the books and records of the
MERHCF in accordance with the U.S. generally accepted accounting principles (U.S. GAAP)
for Federal entities and the formats prescribed by OMB, these statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the
same books and records. The statements should be read with the realization they are for a
component of the U.S. Government, a sovereign entity.

Internal Controls Over Financial Reporting and On Compliance With Other
Matters
During an independent audit of the Fund’s financial statements, the auditor identified
deficiencies related to the internal control over the preparation, analysis, and monitoring of
financial information to support the efficient and effective preparation of financial statements.
Because of these deficiencies, the auditor believes the Fund’s financial management system does
not meet the requirements of an integrated financial management system as defined in OMB
Circular A-127, with respect to consistent internal control over data entry, transaction processing
and reporting. Further, the auditors believe the Fund is not in compliance with the system design
requirements sufficient to comply with internal and external reporting requirements, including,
as necessary, the requirements for financial statements prepared in accordance with the form and
content prescribed by OMB and reporting requirements prescribed by Treasury, and to monitor
the financial management system to ensure integrity of financial data.

The TMA assessments of internal controls identified no systemic weakness concerning accounts
receivable due from pharmaceutical manufacturers’ refunds for drugs dispensed from retail
pharmacies.

More detailed discussion of the auditors findings on internal controls can be found in the
“Independent Auditors’ Report on Internal Control” and on “Compliance and Other Matters.”




                                                13
Principal Statements




            14
                                                                                Principal Statements

 Balance Sheets
                                    Department of Defense
                 Uniformed Services Medicare-Eligible Retiree Health Care Fund
                                     BALANCE SHEETS
                              As of September 30, 2012 and 2011


 ($ In Thousands)                                                        2012                 2011
 ASSETS
  Intragovernmental:
   Fund Balance with Treasury (Note 2)                            $        162,254    $        227,170
   Investments (Note 3)                                                203,341,522         187,826,062

  Total Intragovernmental Assets                                       203,503,776         188,053,232

  Cash and Other Monetary Assets (Note 4)                                     2,312                  0
  Accounts Receivable, Net (Note 5)                                      1 ,004,281            497,982
 TOTAL ASSETS                                                     $    204,510,369    $    188,551,214

 LIABILITIES
  Intragovernmental:
   Accounts Payable (Note 7)                                      $        134,273    $        101,275
  Total Intragovernmental Liabilities                                      134,273             101,275

   Accounts Payable (Note 7)                                               418,559            321,360
   Military Retirement Benefit Liabilities (Notes 5 and 9)             533,392,364        534,379,945
   Other Liabilities (Note 8)                                                2,312                   0

 TOTAL LIABILITIES                                                     533,947,508        534,802,580

 COMMITMENTS AND CONTINGENCIES
 NET POSITION
  Cumulative Results of Operations - Earmarked Funds                  (329,437,139)       (346,251,366)
 TOTAL NET POSITION                                               $   (329,437,139)   $   (346,251,366)

 TOTAL LIABILITIES AND NET POSITION                               $    204,510,369    $    188,551,214




The accompanying notes are an integral part of these statements

                                                          15
                                                                               Principal Statements

Statements of Net Cost
                                     Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                                 STATEMENTS OF NET COST
                        For the Years ended September 30, 2012 and 2011



 ($ In Thousands)                                                       2012              2011
 Program Costs

  Actuarial Non Assumption Costs                                  $   (12,007,182) $     9,996,535
  Other Program Costs                                                   8,190,897        8,820,043

 (Less: Earned Revenue)                                               (24,118,686)      (30,253,771)
  Net Cost before Losses/(Gains) from Actuarial
 Assumption Changes                                               $   (27,934,971) $    (11,437,193)


  Losses/(Gains) from Actuarial Assumption Changes                $    11,120,744 $     (49,324,034)
 Net Cost of Operations                                           $   (16,814,227) $    (60,761,227)




Statements of Changes in Net Position

The accompanying notes are an integral part of these statements

                                                          16
                                                                                 Principal Statements

                                      Department of Defense
                  Uniformed Services Medicare-Eligible Retiree Health Care Fund
                        STATEMENTS OF CHANGES IN NET POSITION
                         For the Years Ended September 30, 2012 and 2011


 ($ In Thousands)                                                         2012                2011
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                               $   (346,251,366)   $   (407,012,593)

 Net Cost of Operations (+/-)                                          (16,814,227)        (60,761,227)

 Net Change                                                             16,814,227         60,761,227

 Cumulative Results of Operations                                     (329,437,139)       (346,251,366)

 Net Position                                                     $ (329,437,139)     $   (346,251,366)




The accompanying notes are an integral part of these statements

                                                          17
                                                                           Principal Statements

Statements of Budgetary Resources
                           Department of Defense
        Uniformed Services Medicare-Eligible Retiree Health Care Fund
              STATEMENTS OF BUDGETARY RESOURCES
              For the Years Ended September 30, 2012 and 2011


 ($ In Thousands)                                                  2012               2011
 BUDGETARY RESOURCES
 Appropriations (discretionary and mandatory)              $        8,736,416 $       8,755,948
 Total Budgetary Resources                                 $        8,736,416 $       8,755,948

 STATUS OF BUDGETARY RESOURCES
 Obligations Incurred                                      $        8,736,416   $     8,755,948
 Total Budgetary Resources                                 $        8,736,416   $     8,755,948

 CHANGE IN OBLIGATED BALANCE
 Obligated balance, start of year (net), as adjusted       $          522,848 $         366,924
 Obligations incurred                                               8,736,416         8,755,948
 Outlays (net) (-)                                                 (8,668,141)       (8,600,024)
 Obligated balance, end of year                            $          591,123 $         522,848

 BUDGET AUTHORITY AND OUTLAYS, NET
 Budget Authority, net (discretionary and mandatory)       $       8,736,416    $    8,755,948

 Outlays, net (discretionary and mandatory)        $                8,668,141 $       8,600,024
 Distributed offsetting receipts (-)                              (12,896,403)      (18,803,364)
 Agency Outlays, net (discretionary and mandatory) $               (4,228,262) $    (10,203,340)




The accompanying notes are an integral part of these statements

                                                          18
                                                        Notes to the Principal Statements

                          Notes to the Principal Statements
Note 1. Significant Accounting Policies
A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations for the Medicare-Eligible Retiree Health Care Fund (MERHCF or the Fund), as
required by the Chief Financial Officers Act of 1990, expanded by the Government Management
Reform Act of 1994, and other appropriate legislation. The financial statements have been
prepared using the books and records of MERHCF in accordance with U.S. generally accepted
accounting principles (USGAAP) promulgated by the Federal Accounting Standards Advisory
Board; the Office of Management and Budget Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation. The
accompanying financial statements account for all resources for which MERHCF is responsible
unless otherwise noted.

The MERHCF currently has two auditor-identified financial statement material weaknesses:
(1) The DoD-managed Military Treatment Facilities (MTFs) do not have compliant, transaction-
based accounting systems that support the costs of direct care provided to MERHCF
beneficiaries, and (2) the MTF-level health care cost data is based on budget execution processes
rather than accrual-based accounting.

B. Mission of the Reporting Entity

The mission of MERHCF is to accumulate funds in order to finance, on an actuarially sound
basis, liabilities of health care programs for DoD Military Services and other Uniformed
Services. The MERHCF provides benefits for a Medicare-eligible member of a participating
Military Service or other Uniformed Service entitled to retired or retainer pay and such
member’s Medicare-eligible dependents or survivors.

C. Appropriations and Funds

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal Year
2001, authorized MERHCF and provided a permanent, indefinite appropriation. Permanent
authority becomes available based upon standing provisions of law without any further
legislative action by the Congress after transmittal of the budget for each year. The law does not
specify an amount of budget authority for the indefinite appropriation; however, the law does
specify a variable factor that determines the amount available until expended.

The MERHCF is a special fund. Accordingly, the funds in MERHCF are used, in compliance
with the law, to provide benefits for the Medicare-eligible beneficiaries listed in paragraph 1B.

Certain trust and special funds may be designated as earmarked funds. Earmarked funds are
financed by specifically identified revenues; required by statute to be used for designated
activities, benefits or purposes; and remain available over time. The MERHCF is required to


                                               19
                                                         Notes to the Principal Statements

separately account for and report on the receipt, use, and retention of revenues and other
financing sources for earmarked funds.

D. Basis of Accounting

The MERHCF’s financial management systems record and report on the accrual basis.
Financial and nonfinancial feeder systems and processes are updated from legacy systems to
collect and report financial information in accordance with USGAAP.

The financial statements and supporting trial balances are compiled from the underlying financial
data. The underlying data for the MERHCF is largely derived from budgetary transactions
(obligations, disbursements, and collections) and proprietary transactions (assets and liabilities)
and accruals made for major items such as accounts receivable, accounts payable, and health care
liabilities. Some of the trial balances may reflect known abnormal balances resulting largely
from business and system processes. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident.

E. Revenues and Other Financing Sources

Using methods and assumptions approved by the DoD MERHCF Board of Actuaries, the DoD
Office of the Actuary determines the amount of the contribution to MERHCF. The contribution
consists of two parts: a U.S. Treasury warrant for the amortization payment of the original
unfunded liability and an annual contribution from each Uniformed Service: Army, Navy, Air
Force, Marine Corps, U.S. Coast Guard, Public Health Service, and National Oceanic and
Atmospheric Administration. Funds from the contributions that exceed the amounts required to
pay current year expenses are invested in long-term securities. These investments and their
associated interest revenues will be used to cover future liabilities of MERHCF.

F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of benefit expenses for the
period incurred. The current financial management systems for MERHCF collect and record
financial information on the full accrual accounting basis for liabilities and expenses of the fund.

G. Accounting for Intragovernmental Activities

The Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the
Financial Report of the United States Government, provides guidance for reporting and
reconciling intragovernmental balances. The MERHCF is able to reconcile balances pertaining
to investments in federal securities.

H. Funds with the U.S. Treasury

The MERHCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of the Defense Finance and Accounting Service (DFAS) and other Defense Agency
financial service centers process the majority of MERHCF’s cash collections, disbursements, and



                                                20
                                                        Notes to the Principal Statements

adjustments worldwide. Each disbursing station prepares monthly reports that provide
information to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and other DoD Agency service centers submit reports to the
U.S. Treasury, by appropriation, on interagency transfers, collections received, and
disbursements issued. The U.S. Treasury records these transactions to the applicable Fund
Balance with Treasury (FBWT) account. The MERHCF reconciles to the U.S. Treasury account
monthly, with no outstanding discrepancies.

The U.S. Treasury allows MERHCF to be fully invested. Therefore, FBWT may be zero at
various times during the fiscal year including the end of a quarter or a fiscal year; however,
internal controls are in place to prevent abnormal balances at the U.S. Treasury.

I. Cash and Other Monetary Assets

Cash is the total of cash resources under the control of DoD which includes coin, paper currency,
negotiable instruments, and amounts held for deposit in banks and other financial institutions.
The MERHCF transacts all business in U.S. dollars. See Note 4, Cash and Other Monetary
Assets, for further information and disclosures.

J. Accounts Receivable

Accounts receivable from other federal entities or the public include accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public
are based upon analysis of collection experience by fund type. The DoD does not recognize an
allowance for estimated uncollectible amounts from other federal agencies. Claims against other
federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual.

Since the beginning of the Federal Ceiling Price (FCP) Program, outpatient pharmaceuticals
purchased by DoD for medical treatment facility pharmacies have been subject to FCPs, as have
those under the TRICARE Mail Order Pharmacy (TMOP) program. The MERHCF
implemented FCPs for the TRICARE Retail Pharmacy program in compliance with the National
Defense Authorization Act for Fiscal Year 2008, §703. The Final Rule was published March 17,
2009, with an effective date of May 26, 2009. The MERHCF applied this rule to all retail
prescriptions filled on or after January 27, 2008, unless the TMA granted a waiver to a particular
manufacturer. Compliance is mandatory and the advantage to the manufacturers is that their
drugs will be included on the DoD Uniform Formulary (list of available prescription drugs). The
MERHCF records accounts receivable upon receipt of the calculation from the TRICARE
Pharmacy Operations Directorate and will post collections from the manufacturers to the fiscal
year of receipt pursuant to Title 10, U.S.C. §1079a.

K. Investments in U.S. Treasury Securities




                                               21
                                                          Notes to the Principal Statements

The MERHCF reports investments in U.S. Treasury securities at cost, net of amortized premiums
or discounts (book value). Premiums or discounts are amortized over the term of the investment
using the effective interest method. The MERHCF’s intent is to hold investments to maturity
unless they are needed to finance claims or otherwise sustain operations. Consequently, there is
no provision for unrealized gains or losses on these securities.

The MERHCF invests in nonmarketable, market-based U.S. Treasury securities which are issued
to federal agencies by the U. S. Treasury, Bureau of the Public Debt. These securities mirror
marketable securities, but are not publicly traded. The MERHCF receives interest semiannually
from the U.S. Treasury on the value of these securities.

L. Contingencies and Other Liabilities

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS
No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as
an existing condition, situation, or set of circumstances that involves an uncertainty as to possible
gain or loss. The uncertainty will be resolved when one or more future events occur or fail to
occur. The MERHCF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses.

M. Net Position

Net position consists of cumulative results of operations. Cumulative results of operations
represent the net of expenses, losses, and financing sources (including appropriations, revenue,
and gains) since inception.

N. Military Retirement and Other Federal Employment Benefits

The DoD applies SFFAS No. 33, Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates, in selecting the discount rate and valuation date
used in estimating actuarial liabilities. In addition, gains and losses from changes in long-term
assumptions used to estimate the actuarial liability are presented separately on the Statement of
Net Cost. During FY 2012, certain costs within the FY 2011 "Losses/(Gains) from Actuarial
Assumption Changes" balance on the Statement of Net Cost was reclassified to agree with the
FY 2012 presentation. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, and Note 18, General Disclosures Related to the Statement of Net Cost, for additional
information.

O. Significant Events

The Office of Management and Budget (OMB), the Treasury Financial Management Service, the
Treasury Bureau of the Public Debt (BPD), the Office of the Under Secretary of Defense
(Comptroller), and Enterprise Solutions and Standards, DFAS agreed to budgetary reporting



                                                 22
                                                     Notes to the Principal Statements

changes related to the purchase of premiums and amortization of premiums and discounts for
Treasury securities. OMB requested these changes be made in order for DoD reporting to be
consistent with the reporting of other Federal agencies.

This change reduced the available funding for the MERHCF by the premiums purchased, the
amortization of these premiums, and the amortization of the discounts. In the past, budgetary
funding was not affected at the time of purchase for a premium. However, the budgetary funding
was reduced monthly by the amortization of premiums and increased by the amortization of
discounts. Beginning August 1, 2012, the budgetary funding was reduced by premium at time
of purchase. The budgetary funding will be increased by the discount at time of maturity. This
change affects the Statement of Budgetary Resources.          See Note 12, Disclosures to the
Statement of Budgetary Resources for more information.

P.     Reclassification

Certain fiscal year 2011 amounts have been reclassified to conform to the fiscal year 2012
presentation.




                                             23
                                                       Notes to the Principal Statements

Note 2. Fund Balance with Treasury

($ In Thousands)                                                    2012                2011
    Fund Balance
    Total Special Funds                                    $        162,254    $         227,170

Status of Fund Balance with Treasury

Unobligated Balance – Unavailable                               175,314,810          185,626,591
Obligated Balance not yet Disbursed                                 591,123              522,847
Non-Budgetary FBWT Accounts                                    (175,743,679)        (185,922,268)
Total                                                      $        162,254    $         227,170

The Fund Balance with Treasury (FBWT) decreased $64.9 million (29%) due to a $176.9 million
change in the final month-end disbursements in September 2012 versus September 2011. This
was offset by a $112.0 million increase in the monthly holdback estimated to cover final month-
end disbursements. The monthly holdback is calculated based on the current month to date
disbursements versus the average monthly disbursement over the past 12 months.

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
the FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily
consists of unobligated and obligated balances. The balances reflect the budgetary authority
remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance, which consists primarily of funds that are temporarily precluded from
obligation by law, is invested in U.S. Treasury securities. Unobligated Balances for the
MERHCF are restricted for use by the public law that established the fund and become available
without further congressional action.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and
services not received and those received but not paid. The MERHCF balance represents
amounts payable to the Defense Logistics Agency (DLA) for purchases of pharmaceuticals, to
private contractors waiting for DLA to replenish the pharmaceutical supply, and to private health
care providers.

The MERHCF Non-Budgetary FBWT Account balance represents investments in U.S. Treasury
securities that are reflected in the MERHCF’s budgetary resources, but are not part of the FBWT.

Note 3. Investments
($ In Thousands)                                         2012
                                                       Amortized
                                       Amortization                  Investments,    Market Value
                          Cost                        (Premium) /
                                         Method                          Net          Disclosure
                                                        Discount




                                                24
                                                         Notes to the Principal Statements

 Intragovernmental
    Securities
    Nonmarketable,                      Effective
      Market-Based    $ 207,793,569      Interest     $ (6,433,352)    $ 201,360,217 $ 262,831,262
Subtotal                207,793,569                     (6,433,352)      201,360,217   262,831,262
Interest Receivable       1,981,305                              0         1,981,305     1,981,305
Total Investments     $ 209,774,874                   $ (6,433,352)    $ 203,341,522 $ 264,812,567


 ($ In Thousands)                                          2011
                                                         Amortized
                                       Amortization                     Investments,   Market Value
                           Cost                         (Premium) /
                                         Method                             Net         Disclosure
                                                          Discount

 Intragovernmental
    Securities
    Nonmarketable,                       Effective
      Market-Based    $ 191,058,659       Interest     $ (5,136,390)   $ 185,922,269 $ 221,620,502
Subtotal                191,058,659                      (5,136,390)     185,922,269   221,620,502
Interest Receivable       1,903,793                               0        1,903,793     1,903,793
Total Investments     $ 192,962,452                    $ (5,136,390)   $ 187,826,062 $ 223,524,295


Total Intragovernmental Securities, Net Investments, for MERHCF increased $15.5 billion (8%).
This increase is primarily the result of investing annual contributions from the U.S. Treasury and
the Uniformed Services (Army, Navy, Air Force, Marine Corps, U.S. Public Health Service,
National Oceanic and Atmospheric Administration, and U.S. Coast Guard) net of benefits paid.
Investment of these funds has a cumulative effect with an expectation that invested balances will
continue growing to cover future benefits. The MERHCF purchased $19.3 billion in long-term
securities during FY 2012.

The federal government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general government purposes. The U.S. Treasury
securities are issued to the earmarked funds as evidence of its receipts and are an asset to the
MERHCF and a liability to the U.S. Treasury. Since MERHCF and the U.S. Treasury are both
parts of the federal government, these assets and liabilities offset each other from the standpoint
of the federal government as a whole. For this reason, they do not represent an asset or a liability
in the U.S. governmentwide financial statements.

The U.S. Treasury securities provide MERHCF with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When MERHCF requires redemption of
these securities to make expenditures, the federal government finances the securities out of
accumulated cash balances, by raising taxes or other receipts, borrowing from the public or
repaying less debt, or curtailing other expenditures. The federal government uses the same
method to finance all other expenditures.



                                                25
                                                         Notes to the Principal Statements

The MERHCF purchases and redeems nonmarketable, market-based U.S. Treasury securities
that fluctuate in tandem with the current selling price of the equivalent marketable securities on
the open market. The MERHCF purchases securities with the intent to hold until maturity;
therefore, balances are not adjusted to market value.

At the semiannual meetings, the Department of Defense Investment Board approves the strategy
for the type of securities purchased by MERHCF. These securities may include U.S. Treasury
bills, notes, bonds, inflation-protected securities, and overnight certificates. The U.S. Treasury
bills are short-term securities with maturities of 1 year or less and are purchased at a discount.
The U.S. Treasury notes have maturities of at least 1 year, but not more than 10 years, and are
purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities
with maturities of 10 years or more and are purchased at either a discount or premium. The U.S.
Treasury Inflation-Protected Securities (TIPS) provide protection against inflation and are
purchased at either a discount or premium. The TIPS principal increases with inflation and
decreases with deflation, as measured by the Consumer Price Index. When TIPS mature, the
U.S. Treasury pays the adjusted principal or original principal, whichever is greater. The TIPS
amount includes inflation compensation as well as the par value of the securities. Overnight
securities are short-term securities, purchased at face value, that mature the next business day
and earn interest at the daily Federal Reserve repurchase agreement rate.


The cost of the U.S. Treasury Securities is displayed in the following table.

                               COST FY 2012                              COST FY 2011
                                      (in thousands)                            (in thousands)


                     Notes                     $3,986,875      Notes                 $3,986,875
                     Bonds                     12,376,504      Bonds                 10,515,160
                     TIPS                     184,831,221      TIPS                 170,645,069
                     Overnights                 6,598,969      Overnights             5,911,555
                     Total Cost              $207,793,569      Total Cost          $191,058,659




                                                26
                                                        Notes to the Principal Statements

Note 4. Cash and Other Monetary Assets

($ In Thousands)                                                   2012               2011

Cash                                                       $          2,312 $                  0
Other Monetary Assets                                                     0                    0
Total Cash and Other Monetary Assets                       $          2,312 $                  0

Cash consists of undeposited collections received after the U.S Treasury month-end cutoff. A
corresponding liability is created because MERHCF is not entitled to use the funds until
deposited with the U.S. Treasury.

Note 5. Accounts Receivable
 ($ In Thousands)                                                  2012
                                                               Allowance For
                                             Gross Amount                         Accounts
                                                                 Estimated
                                                 Due                            Receivable, Net
                                                               Uncollectibles

 Nonfederal Receivables (From the Public)   $        1,085,624 $     (81,343) $       1,004,281
 Total Accounts Receivable                  $        1,085,624 $     (81,343) $       1,004,281


 ($ In Thousands)                                                  2011
                                                               Allowance For
                                             Gross Amount                         Accounts
                                                                 Estimated
                                                 Due                            Receivable, Net
                                                               Uncollectibles

 Nonfederal Receivables (From the Public)   $         524,737 $       (26,755) $       497,982
 Total Accounts Receivable                  $         524,737 $       (26,755) $       497,982


Accounts Receivable, Public, increased $506.3 million (102%). This increase is primarily due to
$483.4 million (net) for the January 2008 - June 2009 receivables resulting from the
implementation of the Federal Ceiling Price (FCP) Program for the TRICARE Retail Pharmacy
Program as required by the FY 2008 National Defense Authorization Act (NDAA), Section 703.
Actual billing calculations for these six quarters were prepared and recorded during FY 2012, as
was allowed by a favorable court ruling in October of FY 2012. In FY 2011, MERHCF could
not determine a reasonable estimate for the amounts owed as of September 30, 2011, and
therefore disclosed a contingent gain surrounding the January 2008 – June 2009 receivables, in
accordance with SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation.”

The accounts receivable represent the MERHCF’s claim for payment from other entities. The
MERHCF only recognizes an allowance for uncollectible amounts from the public. Claims with
other federal agencies are resolved in accordance with the Intragovernmental Business Rules.

As of September 30, 2012, the total net receivables, recorded for the FCP Program for the
TRICARE Retail Pharmacy Program were $786.3 million.


                                                27
                                                          Notes to the Principal Statements


Note 6. Liabilities Not Covered by Budgetary Resources

 ($ In Thousands)                                                      2012           2011
 Nonfederal Liabilities
 Military Retirement Benefits Liabilities (Note 8)              $ 358,077,554 $ 348,753,354
 Total Nonfederal Liabilities                                     358,077,554   348,753,354

 Total Liabilities Not Covered by Budgetary Resources              358,077,554    348,753,354
 Total Liabilities Covered by Budgetary Resources                  175,869,954    186,049,226
 Total Liabilities                                              $ 533,947,508 $ 534,802,580

The MERHCF Liabilities Not Covered by Budgetary Resources represent the portion of the
actuarial liability for health benefits for which current assets are not yet available. Refer to
Note 9, Military Retirement and Other Federal Employment Benefits, for additional details and
disclosures.

Note 7. Accounts Payable
 ($ In Thousands)                                                       2012           2011
 Intragovernmental Payables                                        $   134,273    $   101,275
 Nonfederal Payables (to the Public)                                   418,559        321,360
 Total Accounts Payable                                            $   552,832    $   422,635

Intragovernmental Payables increased $33.0 million (33%) primarily due to increased Mail
Order Pharmacy Program activity caused by the timing of the bills received from the Defense
Logistics Agency and the change in usage of the mail order program by beneficiaries.

Nonfederal Payables (to the Public) increased $97.2 million (30%). This change is primarily due
to an $83.3 million increase in TRICARE Mail Order Pharmacy Program costs. This is the result
of a combination of higher utilization by the DoD Medicare-eligible beneficiaries and an
increase in pharmaceutical expenses and the timing of the last healthcare claims cycle processed
at the end of the fiscal year.

Accounts Payable includes amounts owed to federal and nonfederal entities for goods and
services received by MERHCF.

The MERHCF balance represents amounts payable to the Defense Logistics Agency (DLA) for
purchases of pharmaceuticals, to private contractors waiting for DLA to replenish the
pharmaceutical supply, and to private health care providers.




                                                     28
                                                        Notes to the Principal Statements

Note 8. Other Liabilities

($ In Thousands)                                                       2012                2011

   Deposit Funds and Suspense Accounts                      $             2,312 $                     0

Other Liabilities consist of undeposited collections received after the U.S Treasury month-end
cutoff.

Note 9. Military Retirement Benefit Liabilities

($ In Thousands)                                           FY 2012

                                                     (Less: Assets
   Major Program           Present Value            Available to Pay                Unfunded
       Activities           of Benefits                Benefits                     Liabilities
 Medicare-Eligible
 Retiree Benefits      $     532,781,222      $         (174,703,668)         $     358,077,554
 Benefits Due and
     Payable                     611,142                    (611,142)                             0
 Total                 $     533,392,364      $         (175,314,810)         $     358,077,554


($ In Thousands)                                           FY 2011

                                                     (Less: Assets
   Major Program           Present Value            Available to Pay                Unfunded
       Activities           of Benefits                Benefits                     Liabilities
 Medicare-Eligible
 Retiree Benefits      $     533,667,660       $         (184,914,306)        $     348,753,354
 Benefits Due and
     Payable                     712,285                     (712,285)                        0
 Total                 $     534,379,945       $         (185,626,591)        $     348,753,354




                                               29
                                                           Notes to the Principal Statements

Change in Actuarial Liability
 ($ In Thousands)                                 FY 2012                            FY 2011
Beginning Actuarial Liability           $       533,667,660                        572,995,159
Plus Expenses:
   Normal Cost                                    10,958,301                         12,127,505
   Interest Cost                                  26,457,418                         29,022,624
   Plan Amendments                              (33,269,895)                       (12,807,919)
   Experience Losses
   (Gains)                                       (6,682,447)                        (8,889,969)
   Other factors                                           1                                  0
Subtotal: Expenses before Losses
(Gains) from Actuarial Assumption
Changes                                          (2,536,622)                        19,452,241
Actuarial losses/ (gains)/ due to
  Changes in trend
  assumptions                                   (14,673,866)                       (68,961,084)
  Changes in assumptions
  other than trend                               25,794,610                         19,637,050
Subtotal: Losses (Gains) from
Actuarial Assumption Changes                     11,120,744                        (49,324,034)

Total Expenses                          $         8,584,122                        (29,871,793)
Less Benefit Outlays                              9,470,560                          9,455,706
Total Changes in Actuarial
    Liability                           $          (886,438)                       (39,327,499)
Ending Actuarial Liability              $       532,781,222                        533,667,660

The MERHCF accumulates funds to pay for health care programs for DoD and other Uniformed
Services Medicare-eligible retirees and their Medicare-eligible dependents or survivors.

The schedules in the first two tables above reflect two distinct types of liabilities related to
Military Retirement and Other Federal Employment Benefits. The line entitled “Medicare-
Eligible Retiree Benefits” represents the actuarial (or accrued) liability for future health care
benefits that are not yet incurred, i.e., the present value of future benefits less the present value of
future normal costs. The line entitled “Benefits Due and Payable” represents the incurred-but-
not-reported reserve amount which is an estimate of benefits already incurred but not yet
reported to DoD.

These tables also compute so-called "unfunded liabilities." The assets used in this formula are
different than those that appear on the balance sheet. Assets on the balance sheet are discussed
in Note 4 - Investments, and are based on the fully amortized cost of the securities. The above
asset figures represent the assets available to pay benefits, and are based on the par value cost of
the securities. The fact that different asset bases are used in two different parts of the same
financial statements highlights that there is no singular, exact "unfunded liability." The
MERHCF actuarial liability is adjusted at the end of each fiscal year. The 4th Quarter, FY 2012
balance represents the September 30, 2012, amount.



                                                  30
                                                       Notes to the Principal Statements


Actuarial Cost Method

As dictated by law, the MERHCF is funded using the Aggregate Entry-Age Normal Cost
method. This is a method whereby projected retiree medical plan costs are spread over the
projected service of a new entrant cohort.

Projected Revenues

The MERHCF receives projected revenues from three sources: interest earnings on MERHCF
assets, annual Uniformed Services normal cost contributions, and an annual U.S. Treasury
contribution. The normal cost contributions are paid annually at the beginning of the fiscal year
by the U.S. Treasury from amounts appropriated to the Military Services and are calculated at
the approved full-time and part-time per capita rates times the budgeted full-time and part-time
force strengths, respectively. The contribution from the U.S. Treasury is also paid into
MERHCF at the beginning of each fiscal year and represents the amortization of the unfunded
liability for service performed before October 1, 2002, as well as the amortization of subsequent
actuarial gains and losses. The DoD Medicare-Eligible Retiree Health Care Board of Actuaries
(the Board) approves the methods and assumptions used to calculate the per capita normal cost
rates and the U.S. Treasury contribution, and the Secretary of Defense directs the Secretary of
Treasury to make the payments.

Assumptions

The Board sets the long-term assumptions for each valuation performed for funding purposes.
Prior to FY 2010, the same long term assumptions were used for the financial-statement
valuations. The distinction between the two different valuations is discussed further below.

For the FY 2012 financial-statement valuation, the long-term assumptions include a 4.6%
discount rate and medical trend rates that were developed using a 2.6% inflation assumption.
(For the FY 2012 funding valuation, the long-term assumptions included a 5.75% discount rate
and medical trend rates that were developed using a 3.0% inflation assumption.) Note that the
term ’discount rate’ refers to the interest rate used to discount cash flows. The terms ‘interest
rate’ and ‘discount rate’ are often used interchangeably in this context.

For the FY 2011 financial-statement valuation, the long-term assumptions included a 4.9%
discount rate and medical trend rates that were developed using a 2.5% inflation assumption.
(For the FY 2012 funding valuation, the long-term assumptions included a 5.75% discount rate
and medical trend rates that were developed using a 3.0% inflation assumption.)

The difference in the long-term assumptions between funding and financial statement valuations
is attributable to the Statement of Federal Financial Accounting Standards No. 33 (SFFAS No.
33). The standard is discussed further below. Other assumptions used to calculate the actuarial
liabilities, such as mortality and retirement rates, were based on actual experience. Because of
reporting deadlines, the current year actuarial liability is rolled forward from the prior year
valuation results as reported in the DoD Office of the Actuary’s (OACT’s) ‘Valuation of the



                                               31
                                                         Notes to the Principal Statements

Medicare-Eligible Retiree Health Care Fund’ using accepted actuarial methods. Adjustments are
made as necessary to put liabilities on a financial-statement basis. In the selection of the
valuation date, SFFAS No. 33 allows for the roll-forward of actuarial liabilities from the prior
year valuation results. In calculating the FY 2012 “rolled-forward” actuarial liability, the
following assumptions were used:

     Discount Rate                                    4.6%
     Inflation                                        2.6%

     Medical Trend                              FY 2011 - FY 2012         Ultimate Rate 2036
     Medicare Inpatient (Direct Care)                1.60%                      5.35%
     Medicare Inpatient (Purchased Care)             3.60%                      5.35%
     Medicare Outpatient (Direct Care)               2.26%                      5.35%
     Medicare Outpatient (Purchased Care)            3.26%                      5.35%
     Medicare Prescriptions (Direct Care)            0.00%                      5.35%
     Medicare Prescriptions (Purchased
     Care)                                             4.44%                      5.35%
     Medicare USFHP (Purchased Care)                   3.83%                      5.35%

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

The medical cost trend rate assumptions have a significant effect on the amounts reported. For
example, if each of the assumed trend rates had increased by one percentage point, the actuarial
liability benefits would have increased 29.0%, or approximately $154.7 billion.

Contributions to the MERHCF are calculated to maintain the Fund on an actuarially sound basis.
This means there will be sufficient funds to make all benefit payments to eligible recipients each
year, and the Fund balance is projected to eventually equal the actuarial liability; i.e., all
unfunded liabilities are liquidated. In order to accomplish this, normal costs are calculated to
fully fund the current year projected liability for active duty members and reservists. In addition,
amortization payments are calculated to fund liabilities that were present at plan inception (initial
unfunded liability) and any emerging actuarial gains or losses.

The initial unfunded liability of the program was amortized over a 50-year period through the FY
2012 payment. At its August 2012 meeting, the Board decided to decrease the period over which
the initial unfunded liability is fully amortized by 5 years. Therefore, starting with the FY 2013
payment, the initial unfunded liability is being amortized over a 45-year period, with the last
payment expected to be made October 1, 2046. All subsequent gains and losses experienced by
the system are amortized over a 30-year period. Chapter 56 of Title 10, United State Code
(U.S.C.), requires that the Board approve the methods and assumptions used to (1) compute
actuarial costs and liabilities, (2) amortize the initial unfunded liability, and (3) amortize all
actuarial gains and losses. The Board is a Federal Advisory Committee appointed by the
Secretary of Defense.

SFFAS No. 33, as published on October 14, 2008, by the Federal Accounting Standards
Advisory Board (FASAB), requires the use of a yield curve based on marketable U.S. Treasury


                                                 32
                                                        Notes to the Principal Statements

securities to determine the discount rates used to calculate actuarial liabilities for federal
financial statements. Historical experience is the basis for expectations about future trends in
marketable U.S. Treasury securities.

SFFAS No. 33 is effective for periods beginning after September 30, 2009, and applies to
information provided in general purpose federal financial statements. It does not affect statutory
or other special-purpose reports, such as pension or Other Retirement Benefit reports. SFFAS 33
requires a minimum of five periodic rates for the yield curve input and a consistency in the
number of historical rates used from period to period. It permits the use of a single average
discount rate if the resulting present value is not materially different from what would be
obtained using the yield curve.

DoD OACT annually performs two MERHCF valuations. The primary one is for funding
purposes—this valuation is governed by Chapter 56 of Title 10 U.S.C. and must use methods and
assumptions approved by the Board. The other valuation is for financial statement purposes and
is governed by FASAB standards. For the September 30, 2012, financial-statement valuation,
OACT determined an SFFAS No. 33 equivalent discount rate of 4.6% by using quarterly zero
coupon Treasury spot rates (as published by the Office of Thrift Supervision) from June 30,
2002, through March 31, 2012, with an approximation for the March 31, 2012 rates due to
discontinuation of the published series. In the summer of 2012, the Board approved a discount
rate of 5.75% for the September 30, 2011, funding valuation, which differs from the SFFAS
equivalent rate by 115 basis points.

SFFAS No. 33 requires that the discount rate, underlying inflation rates, and other economic
assumptions should be consistent with one another. A change in the discount rate may cause
other assumptions to change as well. For the September 30, 2012, financial-statement valuation,
use of the SFFAS No. 33 single equivalent discount rate required OACT to change the long-term
inflation and medical trend rate assumptions to be consistent with the underlying Treasury spot
rates used in the valuation. Using the SFFAS No. 33 long-term economic assumptions increases
the MERHCF actuarial liability by 24.1%.

Plan Amendment

The liability also reflects a new plan amendment. The benefit change, effective October 1, 2012,
is a change in the eligibility rules for the US Family Health Plan. Per Sec. 708 of P.L. 112-81,
after September 30, 2012, a military retiree (or eligible family member) who becomes eligible
for Medicare due to age may not enroll in or stay enrolled in the US Family Health Plan, unless
the military retiree (or eligible family member) was enrolled in the plan on September 30, 2012.
The effect of this benefit change on the actuarial liability is ($33.3) billion.




                                               33
                                                       Notes to the Principal Statements

FY 2012 Military Service and Other Uniformed Services Actuarial Liability

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The
approximate breakout of the September 30, 2012, Medicare liability ($ in thousands) for all
Uniformed Services is as follows:

             DoD                                                  $ 520,650,288
             Coast Guard                                             10,832,163
             Public Health Service                                    1,220,224
             National Oceanic and Atmospheric Administration              78,547
             Total                                                $ 532,781,222

FY 2012 Military Service and Other Uniformed Service Contributions

The FY 2012 Military Service and other Uniformed Service contributions to MERHCF ($ in
thousands) were as follows:

             DoD                                                  $ 10,845,107
             Coast Guard                                               261,871
             Public Health Service                                      35,991
             National Oceanic and Atmospheric Administration             1,802
             Total                                                $ 11,144,771

Market Value of MERHCF’s Securities

The market value of MERHCF’s nonmarketable, market-based securities as of
September 30, 2012, totaled $264.8 billion. This amount is also reported on Note 3, Investments
and Related Interest.

Note 10. Disclosures Related to the Statements of Net Cost

             ($ In Thousands)                          2012                           2011
 Gross Costs
  Intragovernmental Costs                      $    2,900,279                $      2,772,992
  Public Costs
        Actuarial Non Assumption costs             (12,007,182)                     9,996,535
        Other Program Costs                          5,290,618                      6,047,051
  Total Costs                                       (3,816,285)                    18,816,578
 Earned Revenue
  Intragovernmental Revenue                        (24,118,686)                    (30,253,771)
  Total Revenue                                    (24,118,686)                    (30,253,771)
 Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits           11,120,744                     (49,324,034)

 Net Cost of Operations                        $ (16,814,227)                $ (60,761,227)




                                              34
                                                         Notes to the Principal Statements

The Net Cost of Operations decreased $43.9 billion (72%) primarily due to $38.4 billion
decrease in the annual change to the actuarial liability. (See Note 9, Military Retirement Benefit
Liabilities).

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
federal government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program (i.e. MERHCF) or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue are related to transactions made between two reporting
entities within the federal government. Public costs and revenues are exchange transactions
made between the reporting entity and a nonfederal entity. Public costs also include actuarial
non assumption changes for other retirement benefits. Pursuant to SFFAS No. 33, “Pensions,
Other Retirement Benefits, and Other Postemployment Benefits: Reporting the Gains and Losses
from Changes in Assumptions and Selecting Discount Rates and Valuation Dates,” effective for
fiscal years after September 30, 2009, actuarial gains and losses due to changes in assumptions
are presented on Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
Benefits line on the Statement of Net Costs.

The following table displays the intragovernmental revenue.

Intragovernmental Earned Revenue for Program Costs

 ($ in Thousands)                                                       FY 2012         FY 2011
 Uniformed Services Contributions                                     $11,144,771     $11,315,433
 U.S. Treasury Annual Unfunded Liability Payment                        6,716,000       9,785,000
 Interest on Investments                                                6,257,915       9,153,338
 Total Intragovernmental Revenue                                      $24,118,686     $30,253,771

Uniformed Service Contributions represent the amount contributed by Treasury on behalf of the
Uniformed Services at the beginning of each fiscal year. The contribution rates, which are
determined by the DoD Retirement Board of Actuaries, are based on DoD Retirement Board of
Actuaries approved per capita normal cost rates and expected average strengths for the
Uniformed Services.

Annual Treasury Unfunded Liability Payment. This payment represents the amortization of the
unfunded liability for service performed before October 1, 2002, as well as the amortization of
subsequent actuarial gains and losses.

Interest on Investments represents the interest income received by the MERHCF for FYs 2012
and 2011.

In FY 2011, based on SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates”, the DoD included all costs associated with the
change in the actuarial liabilities for military retirement in "Losses/(Gains) from Actuarial
Assumption Changes". During FY 2012, the Department of Treasury and the Government


                                                35
                                                         Notes to the Principal Statements

Accountability Office provided additional guidance which specified only trend and other
assumption changes should be recorded as "Losses/(Gains) from Actuarial Assumption Changes".
To ensure comparability, certain FY 2011 costs have been reclassified on the Statement of Net
Cost to conform to the current year presentation.
Note 11. Disclosures Related to the Statements of Changes in Net Position
There was a difference of $8.7 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations Received on the Statement of Budgetary
Resources (SBR). The MERHCF records contributions as revenue on the SCNP, while
contributions are recorded as Appropriations on the SBR. This is in accordance with Office of
Management and Budget reporting requirements. Refer to Note 12, Disclosures Related to the
Statement of Budgetary Resources, for additional details.
Note 12. Disclosures Related to the Statements of Budgetary Resources

 ($ in Thousands)                                                               2012       2011
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
 End of the Period                                                           $ 38,291     100,212

The MERHCF reported $8.7 billion in direct, Category B obligations. Category B obligations
are apportioned funds that relate to a specific project or program.

Public Law 106-398, The Floyd D. Spence National Defense Authorization Act for Fiscal
Year 2001, provided and authorized MERHCF a permanent, indefinite appropriation.

The MERHCF’s unobligated balances of budget authority represent the portion of special fund
receipts collected in the current fiscal year (1) that exceed the amount needed to pay benefits or
other valid obligations and (2) that exceed the receipts temporarily precluded from obligation by
law. The receipts, however, are assets of MERHCF and are available for obligation as needed in
the future.

There was a difference of $8.7 billion between appropriations on the Statement of Changes in
Net Position (SCNP) and appropriations on the SBR. The MERHCF records contributions as
revenue on the SCNP, while contributions are recorded as Appropriations on the SBR. This is in
accordance with Office of Management and Budget reporting requirements.

During FY 2012, MERHCF changed from an accrual basis of accounting to a cash basis of
accounting for budgetary reporting, in compliance with the Office of Management and Budget
(OMB). The OMB, the Treasury Financial Management Service, the Treasury Bureau of the
Public Debt (BPD), the Office of the Under Secretary of Defense (Comptroller), and Enterprise
Solutions and Standards, DFAS agreed to budgetary reporting changes related to the purchase of
premiums and amortization of premiums and discounts for Treasury securities. OMB requested
these changes be made in order for DoD reporting to be consistent with the reporting of other
Federal agencies.

This change reduced the available funding for the MERHCF by the premiums purchased, the
amortization of these premiums, and the amortization of the discounts. In the past, budgetary



                                                36
                                                              Notes to the Principal Statements

funding was not affected at the time of purchase for a premium. However, the budgetary funding
was reduced monthly by the amortization of premiums and increased by the amortization of
discounts. Beginning August 1, 2012, the budgetary funding was reduced by premium at time
of purchase. The budgetary funding will be increased by the discount at time of maturity.

Note 13. Reconciliation of Net Cost of Operations to Budget
 ($ in Thousands)                                                           2012           2011
 Resources Used to Finance Activities:
 Budgetary Resources Obligated—Obligations incurred                  $     8,736,416 $   8,755,948
  Less: Offsetting receipts (-)                                          (12,896,403)  (18,803,364)
  Net obligations                                                         (4,159,987)  (10,047,416)


 Total resources used to finance activities                               (4,159,987)   (10,047,416)

 Resources Used to Finance Items not Part of the Net Cost of
  Operations:
 Change in budgetary resources obligated for goods, services and
  benefits ordered but not yet provided:
  Undelivered Orders (-)                                                     61,921         (36,979)
  Resources that fund expenses recognized in prior Periods (-)             (987,580)    (39,327,500)
  Budgetary offsetting collections and receipts that do not affect          (77,512)       (134.974)
    Net Cost of Operations

 Total resources used to finance items not part of the Net Cost of        (1,003,171)   (39,499,453)
  Operations

 Total resources used to finance the Net Cost of Operations               (5,163,158)   (49,546,869)

  Components Requiring or Generating Resources in Future
     Period Other (+/-)                                                            0        36,134
 Components not Requiring or Generating Resources
   Trust Fund Exchange Revenue                                           (11,144,771)   (11,315,433)
   Other                                                                    (506,298)        64,941

 Total components of Net Cost of Operations that will not
  Require or Generate Resources in the current period                    (11,651,069)   (11,214,358)

 Net Cost of Operations                                              $ (16,814,227)     (60,761,227)




                                                   37
                                                       Notes to the Principal Statements

The following note schedule lines are presented as combined instead of consolidated due to intra-
agency budgetary transactions not being eliminated:

   •   Obligations Incurred.
   •   Obligations Net of Offsetting Collections and Recoveries.
   •   Less: Offsetting Receipts.
   •   Net Obligations.
   •   Undelivered Orders.

Components Requiring or Generating Resources in Future Period - Other displays the change in
the FY 2011 incurred-but-not-reported (IBNR) reserve amounts. The IBNR amount represents
an estimate of medical benefits already incurred but not yet reported to the DoD. Refer to
Note 9, Military Retirement Benefit liabilities for additional details.

Components not Requiring or Generating Resources – Other displays the changes in accounts
receivables since the beginning of both FY 2011 and FY 2012. These changes represent refunds
receivable for (1) amounts due from drug manufacturers as required by the FCP program,
(2) duplicate or other erroneous MERHCF payments made to contractors for care of the
beneficiaries, and (3) copayments from MERHCF beneficiaries for mail order prescriptions.
These refunds receivable are recorded as an offset to expenses. This line also includes the
changes in bad debts for FY 2011 and FY 2012. These bad debts occurred because erroneous
payments made to MERHCF beneficiaries or to nonfederal providers of medical services were
not repaid.




                                               38
                                                       Notes to the Principal Statements

Note 14. Earmarked Funds

                                                                  2012                2011
BALANCE SHEETS
ASSETS
Fund balance with Treasury                                  $       162,254    $       227,170
Investments                                                     203,341,522        187,826,062

Accounts and Interest Receivable                                  1,004,281            497,982
Other assets                                                          2,312                  0
Total Assets                                                $   204,510,369 $      188,551,214
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal Employment
Benefits                                                    $   533,392,364    $   534,379,945
Other Liabilities                                                   555,144            422,635
Total Liabilities                                           $   533,947,508    $   534,802,580

Cumulative Results of Operations                              (329,437,139) (346,251,366)
Total Liabilities and Net Position                          $ 204,510,369 $ 188,551,214

STATEMENTS OF NET COST
Actuarial Non Assumption Changes                            $   (12,007,182) $       9,996,535
Other Program Costs                                               8,190,897          8,820,043
Less Earned Revenue                                             (24,118,686)       (30,253,771)
Losses/(Gains) from Actuarial Assumption Changes                 11,120,744         49,324,034

Net Cost of Operations                                      $   (16,814,227) $     (60,761,227)

STATEMENTS OF CHANGES IN NET POSITION
Net Position Beginning of the Period                        $ (346,251,366) $ (407,012,593)
Net Cost of Operations                                          (16,814,227)       (60,761,227)


Change in Net Position                                      $    16,814,227 $       60,761,227
Net Position End of the Period                              $   (329,437,139) $ (346,251,366)

The MERHCF receives its funding as an earmarked special fund and uses these resources to
execute its mission and report on resource usage.




                                               39
                                                         Notes to the Principal Statements

Note 15. Other Disclosures
The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2012 and 2011,
includes approximately $77.3 billion (15% of total) and $73.6 billion (14% of total),
respectively, of amounts reflecting the actuarial present value of the projected direct-care costs of
benefits to be provided by the MTFs to eligible participants in the MERHCF. Additionally, the
reported amounts of program revenues and cost for the year ended September 30, 2012, include
approximately $2.7 billion and $1.7 billion, respectively, and for the year ended September 30,
2011, include approximately $2.8 billion and $1.8 billion, respectively, of amounts related to the
direct-care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund's
actuaries using data extracted from various Military Service-specific financial, personnel and
workload systems within DoD. With respect to extracted data, the MTFs do not have OMB
Circular A-127, compliant, transaction-based accounting systems and, therefore, cannot report
the costs of an individual patient's care.




                                                 40
Other Accompanying Information




              41
Exhibit 1--Summary of Financial Statement Audit and Management Assurances

                                   SEPTEMBER 30, 2012

Agencies are required to provide certain assurances as to the status and effectiveness of the
internal controls and financial management systems that support the preparation of the financial
statements. In the context of the MERHCF Management Discussion and Analysis, DoD, and not
MERHCF, represents the legislative definition of an Agency. Beginning with FY 2006, as
directed in OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix
A, Internal Control Over Financial Reporting, the 24 CFO Act agencies (includes DoD), are
required to provide a separate assessment of the effectiveness of the internal controls over
financial reporting as a subset of the overall Federal Managers Financial Integrity Act (FMFIA)
assurance statement. OUSD(C) issued guidelines to the leadership of DoD Components,
including MERHCF, as to how to support this DoD reporting requirement. TMA management
complied with the required guidelines for MERHCF.

TMA includes auditor identified weaknesses in its annual assessment of internal controls from
the prior year audit. Due to the timing of TMA’s assessment, which reported during June 2012,
TMA’s assessment may differ from the auditor’s reported weaknesses for the current FY, which
are reported as of September 2012. In its FY 2012 assessments, TMA management assessed
that, except for direct care related material weaknesses, the MERHCF Financial Statement
Reporting Entity (FSRE) has effective internal controls to support effective and efficient
programmatic operations, reliable financial reporting, and is in process of implementing
corrective actions to become fully compliant with applicable laws and regulations (FMFIA § 2).
MERHCF FSRE cannot achieve compliance with (FMFIA § 4) for direct care until the Services
have implemented financial systems that comply with (FMFIA § 4). The OUSD(C) published
Financial Improvement and Audit Readiness Status Report as of July 2012, indicates a FY 2017
timeline for the Services to achieve (FMFIA § 4) compliance.

Except for the two direct care-related material weaknesses, as documented in TMA’s Annual
Statement Required Under the FMFIA dated July 12, 2012, and the above referenced Service-
related FMFIA § 4 weakness, the MERHCF has effective internal controls over financial
reporting.

The Status of FY 2012 Audit Findings and Actions Taken tables include a summary of material
weakness (FMFIA § 2) and non-conformances (FMFIA § 4), and summary of corrective actions
to resolve the material weaknesses and non-conformances.




                                              42
 Table 1.
 Summary of Financial Statement Audit

 Audit Opinion                                                            Qualified
 Restatement                                                                No

 Material Weaknesses                      Beginning   New        Resolved      Consolidated       Ending Balance
                                          Balance
 Lack of U.S. Standard General                                                                         
Ledger Compliant, Transaction-based
Accounting Systems for Direct-care
Costs (Carried Forward and Updated
Finding from Fiscal Year (“FY”)
2005)
 Direct Care Cost Data Accumulation                                                                    
(Carried Forward and Updated
Finding from Fiscal Year FY2005)
 Total Material Weaknesses                    2            0          0               0                 2



 Table 2.
 Summary of Management Assurances
                  Effectiveness of Internal Controls over Financial Reporting (FMFIA § 2)
 Statement of Assurance                                              Qualified

 Material Weaknesses                      Beginning   New      Resolved    Consolidated   Reassessed    Ending
                                          Balance                                                       Balance
 Independent auditor was unable to                                                                        
 obtain sufficient, appropriate audit
 evidence from currently existing non-
 compliant U.S. Standard General
 Ledger transaction-based accounting
 systems to support the costs of direct
 care provided by DoD-managed
 Military Treatment Facilities.
 (Carried Forward and Updated
 Finding from Fiscal Year (“FY”)
 2005)
 ***Government’s inability to submit                             
 timely invoices to drug
 manufacturers for retail pharmacy
 refunds, prevented the auditor from
 obtaining appropriate audit evidence
 to test and evaluate the drug refund
 accounts receivables.

 Total Material Weaknesses                    2        0          1              0            0             1

 ***MERHCF includes auditor-identified weaknesses in its annual assessment of internal controls from the prior
 year audit. Due to the timing of MERHCFs FY 2011 assessment which reported during June 2011, MERHCF’s
 assessment may differ from the auditor’s reported weaknesses for the same period which are reported as of
 September 2011.




                                                        43
Table 3.
Conformance with financial management system requirements (FMFIA § 4)
Statement of Assurance              Purchased Care systems conform to financial management systems
                                    requirements: Direct Care Costs systems do not comply with financial
                                    management systems requirements.

Non-Conformances                         Beginning   New   Resolved   Consolidated   Reassessed   Ending
                                         Balance                                                  Balance
Independent auditor was unable to                                                                   
obtain sufficient, appropriate audit
evidence from currently existing non-
compliant U.S. Standard General
Ledger transaction-based accounting
systems to support the costs of direct
care provided by DoD-managed
Military Treatment Facilities.
(Carried Forward and Updated
Finding from Fiscal Year (“FY”)
2005)
Total non-conformances                       1        0       0            0              0           1

               Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                 Agency                          Auditor
Overall Substantial Compliance                     No                             No
1. Systems Requirements             Yes for Purchased Care; - No for Direct Care
2. Accounting Standards             Yes for Purchased Care; - No for Direct Care
3. USSGL at Transaction Level       Yes for Purchased Care; - No for Direct Care


Note: The above uncorrected weakness combines the two reported Direct Care material
weaknesses identified by the independent auditor in the audit of the FY 2012 MERHCF financial
statements. Identification and implementation of appropriate corrective actions to resolve this
one material weakness will result in successful correction of the two Direct Care material
uncorrected weaknesses identified in the FY 2012 MERHCF audit.




                                                      44
Exhibit 2--IPIA Reporting Details September 30, 2012

Improper Payments Information Act Reporting

The Improper Payments Information Act (IPIA) of 2002, as implemented by the OMB Circular
A-123, Appendix C, “Requirements for Effective Measurement and Remediation of Improper
Payments,” requires Federal agencies to review all programs and activities annually and identify
those that may be susceptible to significant erroneous payments. The Department’s FY 2011
review did not identify any programs at risk of significant erroneous payments in accordance
with OMB criteria (programs with erroneous payments exceeding both $10 million and 2.5% of
program payments).
Risk Assessment

The Department’s risk assessment for Military Health Benefits addressed the effectiveness of
internal controls for preventing improper payments (such as prepayment reviews), as well as
system weaknesses identified internally or by outside audit activities. While the Department’s
improper payment percentages are low, numerous pre- and post-payment controls further
minimize and eliminate improper payments.

On a quarterly basis, the Department audits statistically valid samples of health care claims.
Over the years, these audits consistently have produced an error rate of less than the 2%
performance standard contained in TRICARE contracts. Errors in health care claims processing
potentially can be related to improperly submitted claims by providers, as well as a minimal
degree of human error expected with handling a large volume of claims under the tight time
parameters established by the Prompt Payment Act regulations and the claims processing
timeliness performance standard.

Numerous prepayment and post-payment controls are built into the military health benefits’
claims processing system to minimize improper payments. Every claim is adjudicated against
this system of checks and balances. One control is the prepayment review required under the
contract. The contractor uses this strategy to prevent payment for questionable billing practices.
Prepayment review allows for a closer examination of the services rendered and may require the
provider to submit medical documentation to support the services billed. In addition, the
Department of Defense requires the contractor to have an anti-fraud unit to identify and
investigate any pattern of suspicious or potential fraudulent billings. Recoupment from cases
identified, combined with proactive case work are additional benefit dollars returned to the Fund.

Statistical Sampling Process

To determine an estimate of the annual amount of improper payments, the Department of
Defense uses a statistically valid method of sampling for the managed care support services
contracts and the Medicare dual eligibility contractor.

The Department samples data records for review for claims processed by the Medicare dual
eligible contractor quarterly. There are two kinds of payment samples, one for non-denied
claims and one for denied claims. For the Medicare dual eligible contract, the non-denied



                                               45
         payment sample will be drawn from all records with government payments of $1 to $25,000. All
         records with a government payment of $25,000 and over will be audited. The denied payment
         sample will be drawn from all records with a billed amount of $1 to $500,000. All records with
         billed amounts of $500,000 and over will be audited. The non-denied sample will be stratified at
         multiple levels within the $1 to $25,000 range, and the denied payment sample will be stratified
         at multiple levels within the $1 to $500,000 range.

         Corrective Action Plan

         The Department’s contracts have had payment performance standards for military health benefit
         claims processing in place for many years. The estimate of 2 percent is based on the contract
         performance standard. However, actual results have been consistently less than 1 percent. FY
         2010 results reflect an improper payment rate of 0.24%; FY 2011 results reflect an improper
         payment rate of 0.15%. Contractors exceeding the 2% performance standard are subjected to a
         financial disincentive for erroneous claims payments. In addition, the contractors are financially
         liable for payment of non-allowable claims. This contractual design, combined with numerous
         prepayment and post-payment controls, effectively minimizes improper payments and ensures
         the Government’s risk for improper payments in military health benefits is minimized.

         Military Health Benefits Program Improper Payment Reporting


      FY 2011                 FY 2012           FY 2013 Estimated      FY 2014 Estimated       FY 2015 Estimated
Outlays   IP     IP     Outlays   IP  IP       Outlays   IP    IP     Outlays   IP    IP      Outlays   IP    IP
 ($B)    (%)    ($M)     ($B)    (%) ($M)       ($B)    (%) ($M)       ($B)    (%) ($M)        ($B)    (%) ($M)

 $20.9   0.15   $31.3    $20.3    2    $407     $20.6     2    $413    $21.6     2    $432     $23.2     2    $463


            1. The outlays increased from $12.6B in FY 2010 to $20.9B in FY 2011 due to newly
               scheduled audits of the TRICARE Pharmacy (TPHARM) Program, Active Duty Dental
               Program (ADDP), and the TRICARE Overseas Contract (TOP), that were excluded from
               audit in FY 2010.

            2. The final payment error rate for FY 2011 is 0.15% ($31.3M), which is less than the
               contract performance standard of 2% ($418M) used in the FY 2011 AFR calculation.
               The error rate in FY 2012 and beyond is a conservative estimate based on the 2% contract
               performance standard.

            3. The FY 2011 outlays include all benefit dollars subject to the audit process. Fee-for-
               service claims are considered susceptible to improper payments as payment is made
               based upon an individual claim submitted by a provider or beneficiary certifying services
               were provided as billed. Administrative or change order costs are not included, as those
               costs do not fall into the definition of areas susceptible to improper payments.




                                                        46
   4. The FY 2011 outlays do not include:

   •   The Designated Providers (U.S. Family Health Plan) contracts, through which a set
       amount is paid for each patient’s care on a per member per month basis. The contractor
       is 100% responsible for improper payments; there is no shared risk with the Government.
       The Defense Contract Audit Agency conducts reconciliations to validate correct capitated
       payments for the enrolled population. Government liability is limited to the amount paid
       to the contractor regardless of the cost of health care services.

   •   Special Supplemental Food Program for Women, Infants, and Children Overseas (WIC
       Overseas Program). Under the WIC Overseas Program specific TRICARE beneficiaries
       – pregnant women, breastfeeding women, postpartum women, infants, and children are
       provided supplemental foods and nutrition education when active duty families meet
       certain income thresholds. WIC serves as an adjunct to good health care during critical
       times of growth and development, in order to prevent the occurrence of health problems,
       including drug and other substance abuse, and to improve the health status of program
       participants. The benefit is similar to the benefits provided under the U.S. Department of
       Agriculture (USDA) administered Women, Infant, and Children (WIC) Program within
       the U.S.

TRICARE Dental Program (TDP). The contractor in FY 2011 was United Concordia
Companies, Inc. TMA Risk Assessment for this contract has been Low Risk. The TDP contract
offers a worldwide dental benefit to eligible family members of active duty service members and
Selected Reserve and Individual Ready Reserve sponsors and their eligible family members.
The TDP is a premium based program with the Government contributing a portion of the
premium for certain plan types. The Contractor is at risk for 100% of the claims payment risk in
the CONUS. In OCONUS locations, the Government pays Command Sponsored enrollees, cost
shares for all covered services other than orthodontics, prosthodontics and other restorative care.
The contractor is at risk on OCONUS claims for the allowable portion of the billed charges for
covered services, less applicable cost shares.




                                                47
THIS PAGE INTENTIONALLY LEFT BLANK




                48
Independent Auditor’s Report




             49
THIS PAGE INTENTIONALLY LEFT BLANK




                50
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500




                                                                                   November 7, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE

SUBJECT: Independent Auditor’s Report on the DoD Medicare-Eligible Retiree Health Care
         Fund FY 2012 Basic Financial Statements (Report No. DODIG-2013-016)

We contracted with the independent certified public accounting firm of Kearney & Company to
audit the financial statements of the Medicare-Eligible Retiree Health Care Fund (MERHCF), as
of September 30, 2012, and for the year then ended, and provide a report on internal controls
over financial reporting and compliance with laws and regulations. The contract required that
Kearney & Company conduct the audit in accordance with U.S. generally accepted government
auditing standards, Office of Management and Budget audit guidance, and the Government
Accountability Office/President’s Council on Integrity and Efficiency, “Financial Audit
Manual,” July 2008.

Kearney & Company’s audit resulted in a qualified opinion. According to Kearney & Company,
DoD-managed Military Treatment Facilities did not have compliant, transaction-based
accounting systems. It issued a qualified opinion because it was unable to obtain sufficient,
competent, evidential matter in accordance with OMB Circular A-127, “Financial Management
Systems,” January 9, 2009, and was unable to apply other auditing procedures to support the
costs of direct care provided by the Military Treatment Facilities. Kearney & Company reported
that except for the effects on the financial statements of the amounts related to MERHCF’s direct
care costs, the financial statements presented fairly, in all material respects, the financial position
of MERHCF, as of September 30, 2012 and 2011, and its net cost of operations, changes in net
position, and budgetary resources for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

The report discusses two material weaknesses related to the MERHCF internal controls over
financial reporting. The results of the audit are presented in the attached report.

We reviewed Kearney & Company’s report and related documentation and discussed audit
results with Kearney & Company representatives. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, an opinion on the MERHCF financial statements,
conclusions about the effectiveness of internal controls, conclusions on whether the MERHCF
financial management systems substantially comply with the “Federal Financial Management
Improvement Act of 1996,” or conclusions on compliance with laws and regulations. Kearney &
Company is responsible for the attached auditor’s report, dated November 7, 2012, and the
conclusions expressed in the report. However, our review disclosed no instances where Kearney



                                                   51
                                                                                                  2


& Company did not comply, in all material respects, with U.S. generally accepted government
auditing standards.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601-
5945 (DSN 329-5945).




                                             Lorin T. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations

Attachment:
As stated




                                                  52
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                           INDEPENDENT AUDITOR’S REPORT

To:
The Under Secretary of Defense (Comptroller)/Chief Financial Officer
The Assistant Secretary of Defense for Health Affairs
The Director of the Defense Finance and Accounting Service
The Inspector General of the Department of Defense


We have audited the accompanying balance sheets of the Medicare-Eligible Retiree Health Care
Fund (MERHCF or the Fund) as of September 30, 2012 and 2011, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred to as the
“financial statements”) for the years then ended. These financial statements are the
responsibility of MERHCF’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

Except as discussed in the following paragraphs, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

We were unable to obtain sufficient, competent evidential matter from OMB Circular A-127,
Financial Management Systems, compliant, transaction-based accounting systems to support the
costs of direct care provided by the Department of Defense (DoD)-managed Military Treatment
Facilities (MTF). As discussed in Note 15 to the financial statements, the actuarial liability for
Medicare-eligible retiree benefits as of September 30, 2012 and 2011 includes approximately
$77.3 billion (15% of the total) and $73.6 billion (14% of the total), respectively, of amounts
reflecting the actuarial present value of the projected direct care costs of benefits to be provided
by the MTFs to eligible participants in the Fund. Additionally, the reported amounts of program
revenues and costs related to direct care were approximately $2.7 billion and $1.7 billion,
respectively, for the year ended September 30, 2012, and approximately $2.8 billion and $1.8
billion, respectively, for the year ended September 30, 2011.

Such MTF-related amounts of direct care costs are estimated by the Fund’s actuaries using data
extracted from various service-specific financial, personnel, and workload systems within the
DoD. With respect to extracted data, the MTFs do not currently have compliant, transaction-
based accounting systems. While activity-based costing techniques are used to estimate the




                                                  53
program costs related to the MTFs, the costs being allocated cannot be related to specific
appropriations, and there is insufficient evidence that adequate controls exist and have been
implemented to ensure the completeness, validity, recording, and cut-off of the costs reported.
We were unable to obtain sufficient evidence as to the direct care component of the reported
amount of the actuarial liability for Medicare-eligible retiree benefits by performing other
auditing procedures.

In our opinion, except for the effects on the financial statements of the amounts related to the
Fund’s direct care costs that might have been determined to be necessary had we been able to
obtain sufficient evidence regarding the direct care component of the actuarial liability for
Medicare-eligible retiree benefits, the financial statements referred to above present fairly, in all
material respects, the financial position of the Fund as of September 30, 2012 and 2011, and its
net cost of operations, changes in net position, and budgetary resources for the years then ended,
in conformity with accounting principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America require that the
Management’s Discussion and Analysis be presented to supplement the basic financial
statements. Such information, although not part of the basic financial statements, is required by
OMB Circular A-136, Financial Reporting Requirements, and the Federal Accounting Standards
Advisory Board, who considers it to be an essential part of the financial reporting for placing the
basic financial statements in an appropriate operational, economic, or historical context. We
have applied certain limited procedures to the required supplementary information in accordance
with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the
information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements.
We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any
assurance.

Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. Other Accompanying Information is presented for purposes of additional
analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements,
and accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued reports, dated November 7, 2012, on our consideration of MERHCF’s
internal control over financial reporting and on our tests of MERHCF’s compliance with certain
provisions of laws, regulations, and other matters for the year ended September 30, 2012. The
purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance as well as the results of that testing, and not to provide an opinion on
the internal control over financial reporting or on compliance and other matters. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards




                                                   54
and OMB Bulletin No. 07-04, as amended, and should be considered in assessing the results of
our audits.




Alexandria, Virginia
November 7, 2012




                                               55
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

To:
The Under Secretary of Defense (Comptroller)/Chief Financial Officer
The Assistant Secretary of Defense for Health Affairs
The Director of the Defense Finance and Accounting Service
The Inspector General of the Department of Defense


We have audited the financial statements of the Medicare-Eligible Retiree Health Care Fund
(MERHCF or the Fund) as of and for the year ended September 30, 2012, and have issued our
report thereon dated November 7, 2012. Except as discussed in our report, we conducted our
audit in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. The
management of MERHCF is responsible for establishing, maintaining, and assessing internal
control related to financial reporting and compliance, and assessing internal control to provide
reasonable assurance that the broad control objectives of the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) are met.

In planning and performing our work, we considered MERHCF’s internal control over financial
reporting and compliance by obtaining an understanding of the design effectiveness of
MERHCF’s internal control, determining whether controls had been placed in operation,
assessing control risk, and performing tests of MERHCF’s controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements and not
to provide an opinion on the internal controls. Accordingly, we do not express an opinion on the
effectiveness of MERHCF’s internal control over financial reporting and compliance or on
management’s assertion on internal control included in Management’s Discussion and Analysis.

We limited our internal control testing to those controls necessary to achieve the OMB Bulletin
No. 07-04, as amended, control objectives that provide reasonable, but not absolute assurance,
that: (1) transactions are properly recorded, processed, and summarized to permit the preparation
of the financial statements in accordance with accounting principles generally accepted in the
United States of America (GAAP), and assets are safeguarded against loss from unauthorized
acquisition, use, or disposition; and (2) transactions are executed in compliance with laws
governing the use of budget authority, Government-wide policies and laws identified in
Appendix E of OMB Bulletin No. 07-04, as amended, and other laws and regulations that could
have a direct and material effect on the financial statements. We did not test all internal controls
relevant to operating objectives, as broadly defined by FMFIA, such as those controls relevant to
ensuring efficient operations.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraphs and was not designed to identify all deficiencies in internal




                                                 56
control that might be deficiencies, significant deficiencies, or material weaknesses. Therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses
have been identified. However, as discussed below, we identified certain deficiencies in internal
control that we consider to be material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the following deficiencies in
MERHCF’s internal control to be material weaknesses.

                                      Material Weaknesses

I.     Lack of United States Standard General Ledger Compliant, Transaction-Based
       Accounting Systems for Direct Care Costs (Repeat Condition)

As defined in OMB Circular A-127, Financial Management Systems, “A financial management
system includes the core financial systems and the financial portions of mixed systems necessary
to support financial management, including automated and manual processes, procedures, and
controls, data, hardware, software, and support personnel dedicated to the operations and
maintenance of system functions.” Such financial management systems shall be designed so that
“…financial events shall be recorded applying the requirements of the United States Government
Standard General Ledger (USSGL). Application of the USSGL at the transaction level means
that each time an approved transaction is recorded in the system, it will generate appropriate
general ledger accounts for posting the transaction according to the rules defined in the USSGL
guidance.”

MERHCF’s actuarial liability for Medicare-eligible retiree benefits, as of September 30, 2012,
includes approximately $77.3 billion (15% of the total) of amounts reflecting the actuarial
present value of the projected direct care costs of benefits to be provided by the Department of
Defense (DoD)-managed Military Treatment Facilities (MTF) to eligible participants in
MERHCF. Additionally, the reported amounts of program revenues and costs for the year ended
September 30, 2012 include approximately $2.7 billion and $1.7 billion, respectively, of amounts
related to the direct care costs.

MTF-related amounts of direct care costs are estimated by MERHCF’s actuaries and others
using data extracted from various service-specific financial, personnel, and workload systems
within the DoD. With respect to extracted data, the MTFs do not currently have compliant,
transaction-based accounting systems that apply common and consistent business rules in a
manner envisioned by DoD’s planned Standard Financial Information Structure. Although
activity-based costing techniques are used to estimate the program costs related to the MTFs, the
costs being allocated cannot be related to specific appropriations, and there is insufficient
evidence that adequate controls exist and have been implemented to ensure the completeness,



                                                 57
validity, recording, and cut-off of the costs reported. Additionally, there is insufficient evidence
that adequate controls exist and have been implemented to ensure the timeliness and accuracy of
the medical record coding processes at the MTFs, which is a significant factor in the allocation
processes.

Therefore, the procedures in place to determine the allocated costs of direct care provided by the
MTFs are inadequate to ensure presentation of the direct care costs in conformity with GAAP.

Recommendation:

Kearney recommends that MERHCF continue to work on its corrective action plan to revise
DoD Instruction Number 6070.2, Department of Defense Medicare Eligible Retiree Health Care
Fund Operations, to reflect the use of per capita rates to calculate the annual update of the direct
care portion of the health care liability and determine the annual distribution to the MTFs.

II.    Direct Care Cost Data Accumulation (Repeat Condition)

The costs of health care provided directly by the DoD for MERHCF participants and
beneficiaries represent significant input to the development of the actuarially-determined health
care liabilities of MERHCF, and the determination of amounts contributed by the services for
their active duty participants. These costs are incurred in the MTFs, which are managed by the
services in various locations. MERHCF makes prospective payments to the services based on
estimates of these direct care costs in order to support the operations of the MTFs on an ongoing
basis.

The health care cost data from the MTFs provided for the estimation process is aggregated or
derived from information in both financial and non-financial systems within the services that
have not been audited. The MTF-level data is based on budget execution processes, rather than
accrual-based accounting. There is insufficient evidence that appropriate and consistent cutoff of
accounting activity occurs at the MTF level. During fiscal year (FY) 2012, MERHCF had not
yet implemented appropriate and sufficient levels of management control and reconciliation
processes to ensure the adequacy and completeness of the data required for its financial reporting
and actuarial valuation processes.

We noted that MERHCF performs annual retrospective reconciliation reviews of the MTF level-
of-effort data for the purpose of comparing the prospective payments provided to the MTFs for
care of MERHCF’s participants and beneficiaries versus the results of the budget execution
process. The results of the reconciliations are used in the determination of prospective budgetary
requirements to support the MTFs’ operations, as required by the DoD Instructions.

Recommendation:

Kearney recommends that MERHCF implement the necessary management control and
reconciliation processes with respect to direct care and the design of improved financial
management information systems as part of the overall DoD business transformation efforts.



                                                  58
Additionally, Kearney recommends that MERHCF perform the following:

      Continue its ongoing efforts to develop, test, and implement appropriate and sufficient
       management control and reconciliation processes as soon as possible to ensure that the
       health care cost data from the MTFs is adequate and complete for use in MERHCF’s
       financial reporting and actuarial valuation processes
      Identify all systems that support MERHCF’s financial reporting and actuarial valuation
       processes, including such non-financial systems that support the Military Health
       System’s (MHS) operations, such as the “systems of record” for MERHCF, to be subject
       to appropriate and sufficient management and internal control
      Reassess all processes and procedures for the accumulation, validation, and
       documentation of direct care costs and encounter data to be used in the valuation process
      Formalize and coordinate these processes among the Office of the Actuary (OOA),
       TRICARE Management Activity (TMA), the DoD Office of Health Affairs, and Defense
       Finance and Accounting Service (DFAS)
      Design, test, and implement reconciliation processes to ensure that direct care costs
       utilized for prospective estimates are reconciled to the amounts reported in the financial
       accounting systems, and are adjusted for actual data on a timely basis. Such
       reconciliations should be implemented to encompass direct care cost data recorded on the
       accrual basis of accounting, rather than solely based on the budget execution process
       anticipated by the existing DoD Instructions.


During the audit, we noted certain other matters that we will report to MERHCF’s management
in a separate letter.

MERHCF’s management has provided its response to our findings in the Management’s
Discussion and Analysis section of the Agency Financial Report. We did not audit
management’s response and, accordingly, we do not express an opinion on it.

                                *       *      *       *      *

This report is intended solely for the information and use of MERHCF’s management, those
charged with governance and others within MERHCF, the DoD’s Office of Inspector General,
the Government Accountability Office, OMB, the Department of the Treasury, and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
November 7, 2012




                                                59
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



 INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND OTHER MATTERS

To:
The Under Secretary of Defense (Comptroller)/Chief Financial Officer
The Assistant Secretary of Defense for Health Affairs
The Director of the Defense Finance and Accounting Service
The Inspector General of the Department of Defense


We have audited the financial statements of the Medicare-Eligible Retiree Health Care Fund
(MERHCF or the Fund) as of and for the year ended September 30, 2012, and have issued our
report thereon dated November 7, 2012. Except as discussed in our report, we conducted our
audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. The
management of MERHCF is responsible for compliance with laws and regulations.

As part of obtaining reasonable assurance about whether MERHCF’s financial statements are
free of material misstatement, we performed tests of MERHCF’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 07-04, as amended, that we determined were
applicable. As part of our work, we performed tests of compliance with the Federal Financial
Management Improvement Act of 1996 (FFMIA), Section 803(a) requirements. We limited our
tests of compliance to these provisions; we did not test compliance with all laws and regulations
applicable to MERHCF. Providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no
instances of noncompliance exclusive of FFMIA, or other matters that are required to be reported
upon under Government Auditing Standards and OMB Bulletin No. 07-04, as amended.
However, the material weaknesses identified in our Independent Auditor’s Report on Internal
Control, dated November 7, 2012, with respect to internal control over financial reporting,
indicate that MERHCF is not fully compliant with the requirements of OMB Circulars A-123,
Management's Responsibility for Internal Control, and A-127, Financial Management Systems,
and the Federal Managers’ Financial Integrity Act of 1982 (FMFIA).

Under FFMIA, we are required to report whether MERHCF’s financial management systems
substantially comply with Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Standard General Ledger (USSGL) at the
transaction level. We noted certain instances, described below, in which MERHCF’s financial
management systems and related controls did not substantially comply with certain Federal
system requirements, Federal accounting standards, and the USSGL at the transaction level.



                                                60
Federal Financial Management System Requirements

MERHCF’s financial management system, with respect to direct care costs, does not meet the
requirements of an integrated financial management system, as defined in OMB Circular A-127.

Applicable Federal Accounting Standards

With respect to direct care costs, MERHCF is not in compliance with the system design
requirements necessary to comply with internal and external reporting requirements. These
requirements include the requirement for financial statements to be prepared in accordance with
the form and content rules prescribed by OMB and reporting requirements prescribed by the
Department of the Treasury, as well as the requirement to monitor the financial management
system to ensure the integrity of the financial data.

The financial management systems utilized by MERHCF, with respect to direct care costs, do
not fully, efficiently, and effectively support MERHCF’s efforts to:

      Prepare financial statements and other required financial and budget reports using
       information generated by the financial management systems
      Provide reliable and timely financial information for managing current operations
      Account for assets reliably so they can be properly protected from loss, misappropriation,
       and/or destruction
      Do all of the above in a way that is consistent with Federal accounting standards and the
       USSGL.

Standard General Ledger at the Transaction Level

While the general ledger system utilized by MERHCF is compliant with the USSGL, with
respect to direct care costs, it is not transaction-based.


MERHCF’s management has provided its response to our findings in the Management’s
Discussion and Analysis section of the Agency Financial Report. We did not audit
management’s response and, accordingly, we do not express an opinion on it.

                                *       *      *       *      *




                                                61
This report is intended solely for the information and use of MERHCF’s management, those
charged with governance and others within MERHCF, the Department of Defense’s Office of
Inspector General, the Government Accountability Office, OMB, the Department of the
Treasury, and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.




Alexandria, Virginia
November 7, 2012




                                               62
